<html>
<title> - PREVENTING CHRONIC DISEASE THROUGH HEALTHY LIFESTYLES</title>
<body><pre>[Senate Hearing 108-747]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-747

         PREVENTING CHRONIC DISEASE THROUGH HEALTHY LIFESTYLES

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     JULY 15, 2004--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
96-660                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            ERNEST F. HOLLINGS, South Carolina
LARRY CRAIG, Idaho                   DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          HARRY REID, Nevada
TED STEVENS, Alaska                  HERB KOHL, Wisconsin
MIKE DeWINE, Ohio                    PATTY MURRAY, Washington
RICHARD C. SHELBY, Alabama           MARY L. LANDRIEU, Louisiana
                                     ROBERT C. BYRD, West Virginia (Ex 
                                         officio)
                           Professional Staff
                            Bettilou Taylor
                              Jim Sourwine
                              Mark Laisch
                         Sudip Shrikant Parikh
                             Candice Rogers
                        Ellen Murray (Minority)
                         Erik Fatemi (Minority)
                      Adrienne Hallett (Minority)

                         Administrative Support
                             Carole Geagley


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Arlen Specter.......................     1
Opening statement of Senator Tom Harkin..........................     2
Opening statement of Senator Patty Murray........................     4
    Prepared Statement...........................................     4
Statement of Hon. Tommy G. Thompson, Secretary, Department of 
  Health and Human Services......................................     4
    Prepared statement...........................................     8
Statement of Kenneth L. Gladish, Ph.D., national executive 
  director, YMCA of the USA......................................    20
    Prepared statement...........................................    22
Statement of Vernon E. Delpesce, chief executive officer, YMCA of 
  Greater Des Moines.............................................    25
    Prepared statement...........................................    27
Statement of Eric K. Mann, president and CEO, Pittsburgh 
  Metropolitan YMCA..............................................    30
    Prepared statement...........................................    32
Statement of Dean Ornish, founder, president and director, 
  Preventative Medicine Research Institute.......................    37
    Prepared statement...........................................    39
Statement of Jack Rule, CEO, incentaHEALTH.......................    42
    Prepared statement...........................................    43
Statement of Karen Silberman, executive director, National 
  Coalition for Promoting Physical Activity......................    45
    Prepared statement...........................................    48
Prepared statement of Senator Thad Cochran.......................    54
Prepared statement of Cheryl G. Healton, Dr. P.H., president and 
  CEO, American Legacy Foundation................................    54

 
         PREVENTING CHRONIC DISEASE THROUGH HEALTHY LIFESTYLES

                              ----------                              


                        THURSDAY, JULY 15, 2004

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Harkin, and Murray.


               opening statement of senator arlen specter


    Senator Specter. Good morning, ladies and gentlemen. The 
Appropriations Subcommittee on Labor, Health and Human 
Services, and Education will now proceed.
    Today's hearing is going to be on the subject of preventing 
chronic diseases through healthy lifestyles, a wellness 
hearing, focusing very substantially on the issue of obesity. 
And, at the outset, I thank my distinguished colleague, Ranking 
Member Senator Harkin, for having suggested a special hearing 
on this subject. We will be examining the issues as to chronic 
illnesses which affect some 75 percent of the $1.8 trillion 
annually which is spent on healthcare. Obesity is now the 
second leading cause of death in the United States, 
contributing to at least some 400,000 deaths annually, 
according to statistics from the Centers for Disease Control. 
This subject has special prominence at the moment because 
Secretary Thompson has just announced a program which will open 
Medicare for the issue of obesity, with some additional studies 
being required to see how the treatments would affect obesity 
and how this categorization would fit into the overall Medicare 
program. But there is no doubt that the issues of lifestyle, 
exercise, diet are major factors with some real prospects for 
cutting very deeply into the cost of medical care in the United 
States if we would adopt alternative approaches to lifestyles.
    This is a subject of special interest to me, because my son 
Steve, younger son, is a Ph.D. in nutrition and has done 
extensive research in obesity, and most recently decided that 
he wanted to be in a clinical practice, and is now a medical 
student at the University of Vermont. So the subject of 
nutrition and obesity has been on the Specter agenda for a long 
time.
    It was introduced--with just another personal note--by my 
wife, who is a nutrition expert, ran a cooking school, made 
frozen pies which were prohibited from the Specter dining 
table, and has raised a slender, non-obese group, with a focus 
on this issue, and I'm glad to see that it is coming into 
national prominence, because I think a great deal could be done 
if more Americans would adopt this lifestyle of Senator Harkin 
and myself, which is squash every morning at 6:30 and non-
fattening foods, and a regimen of diet and lots of meditation. 
We would cut the medical costs of America very substantially.
    Secretary Thompson has just said he waived his right to 
testify.
    Now I call on my distinguished colleague, ranking member/
partner, Senator Harkin.


                opening statement of senator tom harkin


    Senator Harkin. Well, thank you very much, Mr. Chairman. I 
hope you don't mind if I don't join you for the squash game. I 
have other ways of exercising. I don't know about that squash, 
but I know you do it every morning, and that's really 
commendable.
    I just want to thank my chairman and my friend, Senator 
Specter, for calling this important hearing today. For those of 
you that know this subcommittee, you know that Senator Specter 
and I have worked as a team for many, many years. We agree on 
so many issues that cut across party lines, when it comes to 
medical research, when it comes to Center for Disease Control 
and Prevention, and this issue, also, wellness and prevention. 
And this is an issue that is important to both of us, and it is 
something we're going to pursue diligently.
    I am pleased to see that we have such a distinguished group 
of witnesses, beginning with our distinguished Secretary 
Thompson.
    I want to publicly commend you, Mr. Secretary, for your 
commitment to promoting wellness, for the generous time and 
energy you have devoted to initiatives such as the Healthy 
Lifestyles and Disease Prevention Campaign. Not to disparage 
any former Secretaries--we've had a lot of good Secretaries of 
Health and Human Services in the past--but I can publicly say 
that this is, I believe, the first Secretary that has really 
focused on changing this paradigm, getting us more into 
wellness and prevention, than anyone before you, and I really, 
really appreciate that and commend you for it, Mr. Secretary.
    I would like to recognize an Iowan who will be testifying 
this morning, Mr. Vernon Delpesce, who's representing the Des 
Moines YMCA; also a former Iowan, Mr. Jack Rule, who's Chief 
Executive Officer of incentaHEALTH. I also want to state that 
the Y is doing an outstanding job--not only in Iowa, but 
nationwide--in promoting health and fitness. I understand that 
Mr. Delpesce will use this hearing to unveil YMCA's major new 
project to promote community wellness--nationwide, by the way.
    Hopefully, Senator Specter and I can work together to help 
include some funding, hopefully, in a bill to help promote the 
Y in this excellent effort. We need to mobilize the public and 
private sectors--everything from schools to businesses to 
communities, everybody--in the cause of wellness and disease 
prevention. We know that healthcare costs are out of control in 
this country. Insurance premiums are going up at an alarming 
rate. More and more people are losing health insurance 
coverage. Everyone talks about the runaway cost of healthcare, 
and all we talk about--it seems like we're talking about access 
and coverage--access to the healthcare, and coverage--but 
that's just for if you get sick. We ought to be talking about 
how we provide access to healthcare. I've often said we don't 
have a healthcare system in our country, we have a sick-care 
system. If you get sick, you get care. But what if you want to 
stay healthy in the first place? What incentives are there? 
What's built into the system to keep you healthy in the first 
place?
    So when we talk about access, let's talk about access to 
``health-care''--access to a whole set of incentives, programs, 
from school on up--through the private sector, the public 
sector--that would encourage you to be healthy in the first 
place. And so we need to kind of shift that.
    I've often said, in the United States we get an A. If you 
look at the world, and health around the world, we get an A in 
treatment and fixing people up. We're the best. But we get an F 
when it comes to prevention and keeping people healthy in the 
first place. And that's just not sustainable, given that 75 
percent of the money we now spend on healthcare is accounted 
for by chronic diseases--heart disease, diabetes, cancer--many 
of these, in large part, preventable. Risk factors, such as 
physical inactivity, poor nutrition, smoking, untreated mental 
illness, lead to these expensive chronic conditions--yet only 2 
percent of healthcare spending in the United States goes 
towards the prevention of chronic disease--obesity, costing our 
nation $117 billion a year in lost productivity, absenteeism, 
and leading to other chronic illnesses.
    Some experts are saying that the generation growing up 
today could be the first to have a shorter life span than their 
parents. So we need to make a new approach, a comprehensive 
approach towards wellness.
    I have introduced a bill called Healthier Lifestyles and 
Prevention bill to provide incentives to schools, employers, 
communities, to focus on health promotion and wellness, to 
create better nutrition, physical activity, mental health 
opportunities for kids in schools, to give the FTC, Federal 
Trade Commission, authority to regulate unfair marketing to 
kids, nutrition labeling on menus in chain restaurants.
    I guess what I'm saying is, this has got to be a 
comprehensive approach. A sliver here and a sliver there won't 
work. This has got to be multifaceted.; it's got to be 
comprehensive. It can't be just the government; it's got to be 
the private sector. It can't just be adults; it's got to be 
kids. And it's got to be communities.
    I was visiting a new housing development recently, and it 
is being built with no sidewalks. So how do kids ride their 
bikes? How do they walk to school when you don't even have 
sidewalks any longer? So bike paths, sidewalks, things like 
this, we have to start thinking about all of this when we pass 
all of this legislation here in the Congress.
    Well, I've taken too long, and you've been very kind to 
give me this time, Mr. Chairman. I just want to thank you for 
your example of fitness. And, yeah, you're in good shape.
    You're in good shape. So I appreciate your example, and our 
partnership in working together, and your stewardship of this 
committee. It's an honor to work with you.
    Senator Specter. Thank you very much, Senator Harkin. Thank 
you for those kind comments.
    Senator Murray, would you care to make an opening 
statement?


               OPENING STATEMENT OF SENATOR PATTY MURRAY


    Senator Murray. Mr. Chairman, I will submit my opening 
statement for the record.
    But just let me take this opportunity to thank you for, I 
think, this very important hearing to talk about health in our 
communities and the fact that physical activity has and does 
make a difference in that. I think we know that chronic disease 
that is caused by obesity and unhealthy lifestyles is costing 
us billions of dollars in this country, and I think it is an 
effort, as Senator Harkin said, that we need to take on from 
every single level.


                           PREPARED STATEMENT


    I don't think it's any surprise to any of us who have 
watched what's happened over the past several decades as a lot 
of our schools have eliminated physical education programs and 
after-school activities, where a lot of our kids really learned 
the importance of these and really learned to enjoy it, which 
is a lifetime learning for them that they need to have. I think 
we know they can't do it alone. They need to have support. We 
need to find ways to make it happen and to fund these solutions 
at all levels.
    I look forward to this hearing and the outcomes of it. 
Thanks very much, Mr. Chairman.
    [The statement follows:]

               Prepared Statement of Senator Patty Murray

    Mr. Chairman; I want to thank you for scheduling this important 
hearing. I also want to thank all of the witnesses today for their 
testimony and their recommendations.
    We are all in agreement that we face a serious public health threat 
that could cripple our health care system.
    Chronic disease--caused by obesity and unhealthy lifestyles--could 
cost our health care system billions of dollars annually in addition to 
the human toll it takes.
    Unfortunately, many of the problems we face with respect to obesity 
and inactivity are of our own making.
  --Overcrowded schools have been forced to sacrifice playgrounds and 
        gyms for classroom space.
  --Limited education dollars have forced many schools to eliminate 
        physical activity or after-school programs that help children 
        learn healthy lifestyles.
    Our schools can play a role in teaching children about the 
importance of physical activity and nutrition.
  --But they cannot do it alone.
    We must provide them with the support they need to help parents and 
families instill good habits in our kids.
    While the challenge can appear overwhelming at times, I think we 
can work together to reverse these disturbing trends toward obesity.
  --But it will require a change in our mindset,
  --and a willingness to give our wholehearted support to finding--and 
        funding--solutions.
    I'm glad we've called this hearing today, and I look forward to 
continuing to work with my colleagues and committed advocates for 
better health for our children.

STATEMENT OF HON. TOMMY G. THOMPSON, SECRETARY, 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES
    Senator Specter. Thank you very much, Senator Murray.
    Mr. Secretary, we welcome you, again, to this hearing. You 
have come to this distinguished position at the start of the 
Administration with President Bush; career started in 1966, in 
the Wisconsin General Assembly; Governor since--between 1987 to 
the year 2000, when he became Secretary of Health and Human 
Services; the longest-serving governor in Wisconsin's history; 
Chairman of the National Governors Association; a long list of 
accolades which we'll put in the record, and we'll save most of 
the time to hear your important testimony.
    The floor is yours.
    Secretary Thompson. Thank you very much, Senator Specter. 
Let me, at the front end, thank you for your leadership. Thank 
you for being an example of physical fitness, of an individual 
that speaks out on what I consider the most important issue 
facing the healthcare industry, the health and welfare of all 
Americans. And I thank you for this hearing. I think it is 
probably the most important hearing that I've ever been at, and 
I want to thank you for having it. And I appreciate it very 
much.
    I also want to express my deepest sympathy to you and to 
your staff on the passing of Carey Lackman from breast cancer 
yesterday. It's time, Senator, that we solve this problem once 
and for all. My family, my mother-in-law died from it, my wife 
is recovering from breast cancer, my young daughter just came 
down with it. So I know full well the terrible seriousness of 
this disease, and I wish nothing but the best for you and her 
family. And thank you very much----
    Senator Specter. Well, thank you for those expressions of 
sympathy. For those who may not know, Carey Lackman Slease 
passed yesterday morning at 5:30, after a long bout of illness 
with breast cancer. So thank you, Mr. Secretary.
    Secretary Thompson. Senator Harkin, I could have--when I 
saw you this morning on television, on FOX, I was--it made my 
whole day. Thank you so very much for speaking out and leading 
in this effort, asking for this hearing. To me, it is so 
important. And thank you for being here, Senator Murray. I wish 
everybody in the Senate could be here to hear the testimony 
this morning on trying to transform healthcare.
    When you look at it, America is not very healthy. Some 125 
million Americans have one or more chronic illnesses. We spent 
$1.5 trillion, 15 percent of our gross national product--75 
percent of it goes for chronic illness. Seven out of ten 
Americans that died last year from chronic illnesses. A good 
share of them could have been prevented by a change in 
lifestyles. Lifestyles need to be changed.
    Medicare--we spend 95 percent of our Medicare dollars 
waiting for people to get sick. It's a curative healthcare 
system, not a preventive healthcare system. Less than 5 percent 
of Medicare money is spent on prevention. Now, none of us in 
this room would ever set up a system like that. It is 
absolutely wrongheaded.
    In the Medicare Modernization Act for the first time, 
because of the leadership of Representative Nancy Johnson and 
my Department, we were able to get, I believe, the most 
important part of the Medicare Modernization Act--that is, the 
induction physical. Next year, on January 1, 2005, everybody 
that's 65 that's going to go into Medicare is going to get a 
preliminary physical, and then we're going to start monitoring 
diseases. We're going to start monitoring diseases and helping 
people to change their lifestyles.
    We also are changing our coverage decision today, which is 
a sea-change in Medicare. Until now, Medicare has never allowed 
for obesity to be considered an illness. For the first time, 
starting with the Medicare coverage changes next year, we're 
now going to be able to use scientific evidence to treat people 
with obesity, a tremendous change.
    Tobacco--and I know, Senator Harkin, you've led on this, 
and I thank you so very much--$155 billion we spent last year 
on tobacco-related illnesses; 442,000 Americans died. If we're 
really going to be concerned about public health, if we want to 
reduce healthcare costs, let's start getting people weaned from 
tobacco uses in America once and for all. We should regulate 
it, and we should really get out the information necessary in 
order to start controlling disease resulting from tobacco use. 
I go around and, people at the Humphrey Building that I see 
smoking, I take cigarettes out of their mouth and tell them I 
love them and I tell them they shouldn't do it.
    We also, from the Department, want to thank each of you for 
allowing us to reprogram the dollars so that we can use our own 
money to instill a National Quit Line at the Department. We're 
now going to be up--as of November of this year, we're going to 
have a National Quit Line, so anybody in America can call in, 
get information, including information on medicines to help 
them quit. Seventy percent of Americans that smoke want to 
quit. Let's help them quit. We will reduce deaths, reduce 
healthcare costs, and improve the quality of health of America.
    We also are doing something that I think is very neat. We 
are the first Department that is going to try and be campus-
free, not only in the buildings, Senators; we're going to ask 
our employees not to smoke on the campus. We've already started 
that at the CMS; we're going to do it, on November 15, on the 
National Quit Line and also in our Smoke Out effort. We're 
going to have that at CDC. I'm going to try to do it in the 
whole Department. And this, to me, is important.
    We spend $135 billion a year on diabetes; 200,000 Americans 
die each year from diabetes--and a good share of them don't 
know they have it. One quarter of the Americans that have 
diabetes don't know that they are diabetic. Eighteen million 
Americans, right now, have Type 2 diabetes, and 41 million more 
Americans are prediabetic. And unless we change it--can you 
imagine? Just look at the figures. Extrapolate, from $135 
billion from 18 million Americans to 41 million Americans that 
are prediabetic, what it's going to cost in the future unless 
we do something about it.
    We are holding public hearings throughout America. We've 
had three of them. We're going to have a national program for 
the Department in order to try and get people to come in and be 
tested.
    Also, in Medicare, for the first time next year, people on 
Medicare are going to be able to come in and get diabetes 
screening. And we're hoping, then, to be able to start 
monitoring them. One quarter of the people on Medicare that 
have diabetes don't know they are diabetic, and it is time we 
find out who they are, and start assisting them right now.
    Obesity, Senator Specter mentioned it cost $118 billion 
last year, and that it's the second leading killer. Well, those 
were 2000-year figures. We think this year it exceeded tobacco. 
We think the 400,000 people that died from tobacco--rather from 
obesity-related illnesses in 2000 now will exceed, this year, 
tobacco-related illnesses.
    What we're trying to do in the Department--when I came 
here, I put the whole Department on a diet. I've lost 15 
pounds. People in my Department--you know, we come from 
Wisconsin, and there isn't anything that cannot be improved 
without adding butter and cheese and beer.
    But I'm trying to get people to start looking at their 
diet. I'm not saying, ``Stop eating,'' but exercise, use 
moderation. My whole Department is on a diet, and we're trying 
to make this a way to really show an example to the Nation.
    We also are putting in our stairwells--we're painting 
pictures in our stairwells, hanging pictures in the stairwells. 
We're going to put music in the stairwells. And we're putting 
signs on the elevator, ``If you don't need to use the elevator, 
walk up the stairs,'' and be able to start getting some 
exercise while you're doing it. I walk up seven flights of 
stairs every single day in the Department. It's an example that 
I try and set for the Department. We also have a program that 
we think is very good, and that one is called ``Steps to a 
HealthierUS.''
    This committee has been very good to the Department. It's 
given us $13 million the first year; it gave us $45 million 
last year; and we're asking for $125 million next year for 
cities to compete to set up programs--walking lanes, bicycle 
paths--and be able to get people out in the communities. We 
want the paths well-lit and safe so families do the necessary 
walking with their families and are able to take the small 
steps to a healthier lifestyle.
    I'm also meeting with the health insurance companies. I 
said, if automobile insurance companies can give a tax break or 
an insurance break for people that have good driving records, 
why can't we set up health insurance for individuals that do 
the right thing, and be able to give them a break on their 
health insurance? And they said that they had never thought of 
it, or they don't want to do it, or there's some legal 
problems. I think if we pushed them, we could accomplish that. 
If the automobile insurance companies can do it, why can't 
health insurance companies do it?
    I've asked many of the restaurant associations, 
restaurants, to come in and talk to me. We have monthly 
meetings with those, and fast-food industries, ask them to come 
in and be able to see if we can voluntarily get more 
information on the menus. A lot of them are doing so, and I 
would like to thank those that are doing it. We have to push 
more of them to do more in the future.
    FDA is going to be changing food labels. We're going to be 
adding--increasing the font size for calories information. 
We're also going to put the number of calories, not only for 
the total package, but also for each meal, so that individual 
consumers have better information as to what they are eating, 
how much they should be eating, and so on.
    We're also putting a tremendous emphasis on, with the 
Department of Agriculture, increasing the consumption of fruits 
and vegetables, especially with minorities. We want to make 
sure that they're able to understand the importance of good 
diet and good exercise, because diabetes and obesity is really 
disproportionately impacting minorities. And we need to attract 
individual leadership in the minority communities to make sure 
we start transforming that.
    What I'm saying, ladies and gentlemen, is that if we want 
to really get at healthcare, if we want to improve the quality 
of health, we've got to go from a curative system to a 
prevention system.
    My Department has also teamed with the Ad Council on 
several ads promoting healthy lifestyles. I'm wondering if I 
could quickly show them. There's just three of them. I think 
they're funny. They give an effective message. I don't know if 
you can see it. If you can show them--we've already had--we've 
had $25 million of free coverage in the first 3 months, and I 
think that's a pretty good indication that they're effective 
yet funny. But--I don't know if you can play them--they're very 
quick. Can you show them to the Senators?
    [Video presentation of examples of the Department of Health 
and Human Services ad campaign.]
    Secretary Thompson. They have been well received. And what 
we're trying to do is, we're trying to use humor. We're trying 
to use humor to get people to recognize the importance of 
healthy lifestyles.
    I would just like to conclude by thanking you for 
introducing the legislation, Senator Harkin, for asking Senator 
Specter, and Senator Specter for holding this hearing, and for 
both of your examples on public health. We also are putting on, 
through the President's Council on Physical Fitness, a program 
in which you can log onto the internet, set up a program of 
exercise, record how well you're doing and get credits from the 
President's Council on Physical Fitness, but also be able to 
compare yourself to other people to see how well you're doing. 
And this is something that we've got on our Web page, and is 
just one of the things we're doing in the Department to really 
try and transform it.

                           PREPARED STATEMENT

    But the truth of the matter is, if we really want to change 
healthcare and improve healthcare in America, we've got to look 
at--stop smoking, watch what we eat, and eat moderately, and do 
exercise. It's common sense. It will take a transformation of 
the current healthcare system, but it's the right thing to do. 
It's the right issue. And thank you so very much for having 
this hearing.
    [The statement follows:]

              Prepared Statement of Hon. Tommy G. Thompson

                              INTRODUCTION

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to participate in today's hearing and this important 
discussion on healthy lifestyles, health promotion, and disease 
prevention.
    The United States faces a grave and significant health challenge. 
Seven of 10 deaths each year are caused by chronic diseases. The 
underlying causes of these diseases are often risk factors that can be 
successfully modified years before they ultimately contribute to 
illness and death. Three such factors-tobacco use, poor nutrition, and 
lack of physical activity-are major contributors to the nation's 
leading killers. America's poor eating habits and lack of physical 
activity are literally killing us. Even worse, America's children are 
more sedentary and overweight than ever before. The prevalence of 
overweight has more than doubled in children and tripled in 
adolescents, and there are indicators that suggest that diabetes rates 
among children are also increasing,
    Chronic diseases account for more than 60 percent of medical care 
expenditures. The total cost of obesity is up to $117 billion per year. 
We estimate the number of Americans dying from obesity will surpass the 
number of deaths due to tobacco this year. Tobacco use causes 440,000 
deaths annually and costs $75 billion just in direct medical costs. In 
2002, the estimated cost of diabetes in the United States was $132 
billion and the work disability rate is 26 percent for those with the 
disease and 8 percent for those without diabetes.
    That is a lot of bad news. The good news is that while the problem 
is vast, the solution is achievable, and I want to talk today about my 
vision for making that happen.
    It is one of my primary goals as secretary to make certain that all 
Americans understand what they can do to protect their health. 
Prevention is the power to protect your health. I intend to continue to 
promote a national dialogue about the state of America's health--with 
prevention as the primary focus. We need to strike a better balance 
between preventive care and treatment. Our mission at the Department of 
Health and Human Services is to do just that. There is no better time 
to put the health of America front and center than now. We need to get 
off the couch, have fun and live healthy. By practicing even a little 
prevention, we will have a nation that is as strong in heart and body 
as it is in spirit.

    DEPARTMENT OF HEALTH AND HUMAN SERVICES STEPS TO A HEALTHIERUS 
                               INITIATIVE

    The President recognizes that a healthy America is a strong 
America. In June 2002, President Bush launched the HealthierUS 
initiative designed to help Americans, especially children, live 
longer, better, and healthier lives. The President's HealthierUS 
initiative helps Americans take steps to improve personal health and 
fitness and encourages all Americans to: (1) be physically active every 
day; (2) eat a nutritious diet; (3) get preventive screenings; and (4) 
make healthy choices concerning alcohol, tobacco, drugs and safety.
    Two years ago, I launched Steps to a HealthierUS to help Americans 
lead healthier lifestyles. At the heart of this program lies both 
personal responsibility for the choices Americans make and social 
responsibility to ensure that policy makers support programs that 
foster healthy behaviors and prevent disease. The Steps initiative 
envisions a healthy, strong, U.S. population supported by a health care 
system in which diseases are prevented when possible, controlled when 
necessary, and treated when appropriate.
    The central message of the Steps to a HealthierUS initiative is 
that small steps can make a big difference. We want people to 
understand that they do not need to make drastic changes to their 
lifestyles to be healthier. We are not asking every American to run a 
marathon, join a gym, or give up eating their favorite foods. Small 
steps, such as playing outside with your children, going for a walk, 
snacking on fruits and vegetables, or taking the stairs instead of the 
elevator, can make a big difference in our health.
    The cornerstone of the Steps initiative is the community grant 
program. Last year, the first year of the grant program, 23 communities 
were funded. This year $44 million is set aside to help additional 
communities develop action plans to implement programs that promote 
disease prevention and health. The interest in this program has been 
overwhelming and we are receiving far more applications than we can 
fund each year. For next year, we have requested $125 million to 
support this grant program. These funds are used to help implement 
community action plans for activities ranging from establishing 
community walking programs to helping schools, worksites, shopping 
malls, senior centers and other community locations establish exercise, 
nutrition, and smoking cessation programs. We are targeting diabetes, 
asthma and obesity because of their rapidly increasing prevalence in 
the United States and the ability for individuals to control and even 
prevent these diseases through exercise, diet and other strategies that 
will be implemented with these grant funds.
    In addition to the community grants, the Steps initiative has 
several other components. In December of 2003, HHS awarded eight Steps 
Innovation in Prevention Awards in seven categories to groups and 
organizations recognizing their accomplishments and highlighting the 
concrete health improvements that each has achieved. For the past two 
years in the spring, the Department has sponsored the Steps to a 
HealthierUS: Prevention Summit in Baltimore, Maryland. The summit 
brought together more than 1,000 providers and practitioners, 
educators, and policymakers, community and industry leaders to discuss 
promising approaches for tackling key challenges. Both of these 
components of the Steps initiative have fostered the exchange of 
information about what works to put prevention into practice.
    Another aspect of the Steps initiative is the partnership program 
where other public and private sector organizations work with HHS to 
support and promote healthier living. These partnerships are designed 
to encourage other organizations to follow the lead of the Innovation 
Award recipients.
    In the past year, I have met with many individuals and hosted a 
series of roundtable sessions with business leaders, researchers, 
providers, insurers, and other interested parties to discuss health 
promotion and disease prevention issues and strategies. I also convened 
several departmental workgroups on obesity, diabetes, tobacco use, 
health literacy and health messaging to review current programs and 
progress. In April 2004, I released my ``Blueprint for Action'' which 
represents the product of these various efforts and outlines simple 
action steps to guide individuals in their quest for healthier 
lifestyles. It also encourages other interested parties and 
organizations, such as health care providers, employers, communities, 
insurers, media, schools, and government to collaborate and cooperate 
to overcome obstacles, to promote healthy lifestyles and reduce the 
burden of chronic diseases.
    In addition, last fall I launched my ``Secretary's Challenge--Steps 
to a HealthierHHS'' for employees in the Hubert Humphrey Building. This 
work site health promotion program encouraged my employees to become 
more physically active by exercising at least 30 minutes a day, five 
days a week for six weeks. I plan to take this challenge to all HHS 
employees and other federal departments soon.

                          ADVERTISING CAMPAIGN

    We also are conducting a creative public education and advertising 
campaign. Our ads run on T.V., radio, and the Internet, in English and 
Spanish. They are humorous ads that show people finding body parts--
love handles, double chins, and big bellies--that have been ``lost'' by 
people who are practicing healthier habits. They send the message that 
small steps can make a big difference in leading healthier lifestyles, 
and they do so without making people feel guilty or discouraged. This 
Healthy Lifestyles campaign includes a web site, www.smallsteps.gov 
that offers consumers ongoing ideas, 100 small steps, and support to 
pave the road to a healthier lifestyle.
    Our public service campaign will continue, and we are expanding it 
with the Ad Council. We will build upon the Small Steps campaign in the 
coming year, but we also will be adding a new advertising campaign 
targeting children. We want to educate children early about the 
importance of being active and eating healthy. We want to help 
reinforce the messages that parents teach their children: eat your 
vegetables; go outside and play; put down the video games and play a 
game of tag. Then later next year, we plan to freshen the adult 
campaign with new ads.
    When you combine these two Ad Council campaigns with our VERB 
campaign demonstraton, which focused on increasing physical activity 
among 9-13 year olds, we are getting our targeted messages to much of 
our population. First year data from a VERB evaluation suggests that 
the campaign reached its target audience and contributed to improved 
levels of physical activity.
    We are providing motivation for our children, their parents, and 
adults to take the right steps to lead a healthy life. We also can 
certainly use the media's continued help in getting out these important 
messages to adults, children, and entire families.

                       MEDICARE MODERNIZATION ACT

    If you talk to senior management of corporations in almost any 
industry about their biggest concerns, you hear over and over about 
rising health care costs. Much of these costs are linked to preventable 
chronic diseases. That is why employer spending on prevention is a wise 
investment. When I talk with employers or insurers or food producers, I 
tell them, if you have not made an effort to make your policies 
consistent with healthy habits, you are missing an opportunity to lower 
health care expenses and absenteeism, and increase productivity.
    We at HHS are leading by example. Medicare is the Nation's largest 
provider of health insurance, affecting more than 40 million seniors 
and people with disabilities. With this past year's Medicare 
Modernization Act, I pushed to include more preventive benefits in 
Medicare. Now, starting in January 2005, seniors entering Medicare will 
be offered a complete, ``Welcome to Medicare'' physical. In addition, 
all people on Medicare will be covered for blood tests that can 
diagnose heart diseases. Additionally, those high at risk for diabetes 
will be covered for blood sugar screening tests.
    It makes sense to spend money on preventive medicine. Preventive 
care enables doctors and patients to diagnose and treat health problems 
earlier, changing our health care system from a focus on treating 
disease to a focus on preventing disease. This shift in thinking will 
pay off not only in lower health care expenses, but also in a better 
quality of life for all Americans.

       OVERVIEW OF OBESITY AND DIABETES EPIDEMIC IN UNITED STATES

    Today we face an epidemic of obesity--a major risk factor for heart 
disease and stroke, diabetes, and certain forms of cancer. Right now, 
our country is just too fat, and we have a crisis on our hands. By way 
of comparison, obesity has roughly the same association with chronic 
health conditions as does 20 years of aging. Few of our citizens have 
healthy nutrition and physical activity levels. The impact of this 
physical inactivity on medical costs is substantial and is likely to 
grow unless trends in physical activity change among older adults.
    In the United States, obesity has risen at an alarming rate during 
the past 20 years. In fact, two out of every three of Americans now are 
overweight or obese. Even worse, the prevalence of overweight children 
has risen drastically. More than half of children who are overweight 
have at least one additional cardiovascular disease risk factor, such 
as elevated cholesterol or high blood pressure.
    In 2000, the cost of diseases associated with obesity was estimated 
to be $117 billion for direct and indirect costs. Of the approximately 
$1.6 trillion [$1.3 in 2000 but $1.6 in 2002 according to CMS] spent on 
health care each year, about 75 percent of these dollars are spent 
treating chronic diseases such as heart disease, cancer, and diabetes, 
and $75 billion of that treats obesity alone.
    In fact, there is a corresponding overwhelming rise in diabetes 
that we cannot afford to ignore. Today, at least 18.2 million Americans 
have diabetes, of which 5.2 million have the disease but have not yet 
been diagnosed. At least 41 million more have the condition known as 
``pre-diabetes.'' These people have higher than normal blood glucose 
levels and are at increased risk of developing diabetes. These facts 
are too troubling to disregard and too grim to just accept. Type 2 
Diabetes was once considered a disease of the middle-aged and elderly, 
but now we are seeing it in our children.
    My Department and this Administration absolutely refuses to accept 
the increase in the prevalence of diabetes, currently the sixth leading 
cause of death in America. We must act against this long-term public 
health crisis of obesity. If we do not improve, the gains in life 
expectancy and quality of life resulting from modern medicine's 
advances on disease will erode, and more health-related costs will 
burden the nation. We must educate Americans about how to take 
responsibility for their own health and the health of their family 
members, how to build healthy nutrition and physical activity into 
their daily lives, and how to make wise choices.
    Therefore, we are acting for change, acting boldly and with energy 
and focus. The agencies of my Department are performing leading-edge 
research, and looking for ways to use those research findings to lead 
us to action.
    Although the increasing burden of diabetes and its complications is 
alarming, much of this burden could be prevented with early detection, 
improved delivery of care, and better education on diabetes self-
management. A modest and attainable improvement in our level of 
activity and the food we eat will work wonders. It is scientifically 
proven that moderate physical activity can substantially reduce the 
risk of developing type 2 diabetes--not to mention heart disease, colon 
cancer, high blood pressure and obesity. We are doing everything we can 
to make diabetes a bad memory, and we will not accept such a thing as a 
``tolerable'' incidence of diabetes, while we can still research more, 
educate more, and treat more Americans.
    We are taking a number of other important steps to address obesity, 
diabetes and improve the overall wellness of Americans:
    In November of 2003, HHS launched the Diabetes Detection 
Initiative: Finding the Undiagnosed. This community-based effort seeks 
to identify persons with undiagnosed type 2 diabetes and refer them to 
follow up blood testing and treatment if necessary.
    We also are in the process of consulting with the public and 
relevant stakeholders on diabetes issues. As part of the process to 
create this action plan, three half-day town hall ``listening 
sessions'' are scheduled in different parts of the United States, to 
highlight the important steps that individuals, health care 
practitioners and providers, businesses, and communities are taking to 
detect diabetes and educate patients, their families, and other 
Americans. The first town hall meeting focused on prevention of 
diabetes and was held in Cincinnati, Ohio on March 29, 2004 with over 
350 attendees. The second town hall was held in Little Rock, Arkansas 
on June 18 and discussed diabetes detection and education. The third 
town hall meeting is scheduled for Seattle, Washington on July 26, and 
will focus on treatment of diabetes.
    Other departmental activities include:

                                  FDA

    In August 2003, FDA established an Obesity Working Group (OWG) to 
advise the Agency on innovative ways to deal with the increase in 
obesity and to identify ways to help consumers lead healthier lives 
through better nutrition.
    In March 2004, the FDA released its comprehensive report to combat 
obesity with a focus on the message, ``Calories Count.'' The report 
focuses on providing consumers with better information to help them 
lead healthier lives through better nutrition.
    The FDA is presently working to:

1. Improve Food Labels
    Consumers need more information to make sound food choices in the 
areas of calories and serving sizes. FDA has received petitions from 
manufacturers to provide for nutrient content claims for the 
carbohydrate content of foods. FDA is in the process of evaluating the 
petitions and plans to define terms such as ``net,'' ``low,'' and 
``impact'' so that consumers are armed with better and more accurate 
information when making food choices.
    FDA is also encouraging the use of comparative labeling statements 
to make it easier for consumers to compare different types of foods and 
make healthier substitutions. For example, ``One medium apple (80 
calories) contains 47 percent fewer calories than a one ounce serving 
of potato chips (150 calories).''

2. Restaurant Nutrition Information
    FDA is urging the restaurant industry to launch a nation-wide, 
voluntary, and point-of-sale nutrition information campaign for 
customers. FDA also encourages consumers routinely to request nutrition 
information when eating out. In addition, the final report calls for 
the development of options for providing voluntary, standardized, 
simple, and understandable nutrition information, including calorie 
information, at the point-of-sale in a restaurant setting.

3. Increased Enforcement Activity
    FDA plans various enforcement activities to ensure the accuracy of 
the information in the Nutritional Facts panel and to ensure that 
consumers can monitor their intake of calories and nutrients. This 
includes stricter enforcement activities against those manufacturers 
that declare inaccurate serving sizes.
    This past year also witnessed a major change in the nutrition label 
on foods to include a separate listing of trans fatty acids. This was 
the first significant change on the Nutrition Facts panel since it was 
established in 1993.
    The FDA has also undertaken a broad effort to crack down on 
misleading information and/or unsafe dietary supplements, and proposed 
new regulations to establish good manufacturing practice requirements 
for dietary supplements. The FDA took steps to remove dietary 
supplements containing ephedrine alkaloids from the market. These 
products were extensively promoted for aiding weight control and 
boosting sports performance and energy. One of the key messages of this 
effort is that there are no safe quick fixes when it comes to losing 
weight and improving athletic performance, and it is only through 
proper diet, nutrition and exercise that we can improve our physical 
performance and, more importantly, maintain and improve our health.
    And, the FDA is partnering with other federal agencies to combat 
obesity among kids. The Power of Choice is an after-school program 
developed jointly by HHS's FDA and USDA's Food and Nutrition Service. 
The materials guide pre-teens toward a healthier lifestyle by 
motivating and empowering them to make smarter food and physical 
activity choices in real-life settings. A Leader's Guide, containing 
ten sequenced interactive sessions engage adolescents in fun activities 
that develop skills and encourage personal development related to 
choosing foods wisely, preparing foods safely, and reducing sedentary 
behaviors. Most activities require little or no pre-planning and are 
simple to do. The Leader's Guide also includes easy snack recipes, 170 
Nutrition Facts cards, and posters on four key topics, and a computer 
disk provides supplemental activities to each of the 10 sessions, a 
self-training video for the leader, community support suggestions, and 
much more.

                                  NIH

    Through its research mission, the NIH is seeking to capitalize on 
recent scientific discoveries to further understand the forces 
contributing to obesity and develop strategies for prevention and 
treatment. NIH expects to spend roughly $400 million this year on 
obesity-related research, and the Administration has requested more 
than $440 million for fiscal year 2005.
    As the problems of overweight and obesity have grown, the need for 
new action and research has become more evident. In response, NIH 
assembled a Task Force to identify areas for new research across its 
many institutes. In March 2004, NIH released the draft of its Strategic 
Plan for NIH Obesity Research (www.obesityresearch.nih.gov). This 
report identifies key areas of research needed, priorities among those 
areas, a road map and strategies for advancing these research 
priorities, and the establishment of a committee for monitoring 
progress in addressing the issues and problems relating to overweight 
and obesity. The NIH expects to make the final, published Strategic 
Plan for NIH Obesity Research available shortly.

                       5 A DAY FOR BETTER HEALTH

    One of the most recognizable efforts to promote good nutrition and 
healthy eating habits has been the National Cancer Institute's 5 A Day 
for Better Health Program. This national nutrition program seeks to 
increase to 5 or more the number of daily servings Americans eat of 
fruits and vegetables. In addition to its widely known slogan, the 5 A 
Day program reaches many individuals through health care provider 
networks, the internet, and print media to provide information about 
the health benefits of eating more fruits and vegetables, as well as 
easy steps for adding more of them into daily eating patterns.

                                  CDC

The National Nutrition and Physical Activity Program to Prevent Obesity
    With 2004 funding, the CDC will support obesity prevention programs 
in a total of 28 states. Of these, 23 states will be funded at the 
capacity-building level to hire staff with expertise in public health 
nutrition and physical activity, build broad based coalitions, develop 
state plans, identify community resources and gaps, implement small-
scale interventions, and work to raise public health awareness of 
changes needed to help state residents achieve and maintain a healthy 
weight. The other five states are funded at the basic-implementation 
level to put their state plans into action, conduct and evaluate 
nutrition and physical activity interventions, train health care and 
public health professionals, provide grants to communities, make 
environmental changes, and strengthen obesity prevention programs in 
community settings.
    In addition, CDC provides funding to 23 states for the 
implementation of school-based policies and programs to help young 
people avoid behaviors that increase their risk for obesity 
specifically unhealthy eating and inadequate physical activity.
Making it Happen--School Nutrition Success Stories (MIH)
    This material features the stories of 32 schools and school 
districts that have implemented innovative strategies to improve the 
nutritional quality of foods and beverages offered and sold on school 
campuses. MIH is a joint project of the Food and Nutrition Service of 
USDA and the Division of Adolescent and School Health of CDC.

                        OTHER KEY HHS ACTIVITIES

Administration on Aging Action
    The Administration on Aging's (AoA) National Policy and Resource 
Center on Nutrition, Physical Activity and Aging was created for the 
purpose of increasing and improving food and nutrition services to 
older Americans through their caregivers at home, with community-based 
service providers, and in long-term care systems. The Center focuses on 
linking proper nutrition and physical activity as key themes in the 
healthy aging process. One strategy for making this link has been the 
development and publication of a community guide entitled, ``You Can! 
Steps to Healthier Aging'', that details a 12-week program to help 
older Americans ``eat better'' and ``move more.'' The Center is 
awarding 10 mini-grants to local communities to implement the You Can! 
Program in 2004.
    AoA provides funding to states to implement health promotion and 
disease prevention activities. Educational information is disseminated 
through Senior Centers, congregate meal sites, and home-delivered meal 
programs. Health screening and risk assessment activities including 
hypertension, glaucoma, hearing, nutrition screening, cholesterol, 
vision, diabetes, bone density, and others are also provided. Physical 
activity and fitness programs are provided along with education about 
the prevention and reduction of alcohol, substance abuse, and smoking.

                               CONCLUSION

    We must continue to work hard to spread the gospel of personal 
responsibility. Each of us has to take responsibility for making the 
right choices when it comes to diet and exercise. My Department has 
taken steps to promote this attitude--and most importantly, we are 
trying to do it in creative ways without inflicting the guilt that 
turns so many people off.
    From the day I arrived at the Department, I made healthy living and 
disease prevention our cornerstone priority. I put our whole Department 
on a diet, and I lost fifteen pounds myself. I began handing out 
pedometers, to help people walk 10,000 steps a day. Now they are a 
fashion statement.
    My challenge to Americans is to find a way, not just one way, but 
several ways to spread the message of healthy living. Through 
employers, neighbors, churches, community groups, and even your own 
family, there are countless opportunities for each of us to encourage 
disease prevention and healthy living in our own lives.
    I thank you for your interest and the opportunity to share with you 
some of HHS's many activities related to promoting healthy lifestyles 
and reducing the burden of obesity and chronic diseases in America. 
Let's keep the dialogue going so this issue stays on our radar screen 
until it is not a problem anymore. We can work together to make this 
happen.

    Senator Specter. Thank you very much, Mr. Secretary.
    You have indicated the policy change to expand coverage of 
obesity treatments such as gastric bypass surgery, with the 
proviso that before such procedures will be covered by 
Medicare, they must first be shown to improve health. There 
have been very extensive procedures, such as gastric bypass, 
for many years, and studies have shown it to be effective. Why 
not start now, Mr. Secretary--at least with gastric bypass, 
where there is a good bit of evidence that they are 
successful--to put Medicare to work on the issue?
    Secretary Thompson. I'm willing to do that, Senator 
Specter. The truth of the matter is, this has been a tremendous 
sea-change from what the former coverage was at CMS. It didn't 
allow for anything dealing with strictly obesity. The coverage 
would allow for diabetes, if it was for treatment. But I think 
this is a giant step forward, and we're looking at exactly what 
you're talking about, to go the next step. This is, sort of, 
the middle step, but I think the next step is what you're 
asking for, Senator Specter, and we're looking at that, and 
we're compiling the scientific evidence in order to make that 
change. And I thank you for the question.
    Senator Specter. Well, I would encourage you to do that, 
because I believe it will prove out that it'll be a savings by 
preventing further ailments.
    Mr. Secretary, I want to cover one other subject--our time 
is limited, and we have a long list of witnesses--and that is 
the stem cell issue where you wrote, yesterday, to the Speaker 
of the House of Representatives, with an idea for a registry. 
And I think it is a good idea. And as I have heard about it, it 
will make available, through the registry, stem cell lines 
where--there are now lines which have been permitted by the 
President's declaration back in August 2001 for Federal 
funding--so that companies which own these lines and are 
currently making it difficult for other researchers to use 
them, there can be some pressure from the funding, which they 
now get from NIH or Health and Human Services, to facilitate 
the availability of those stem cell lines to other researchers.
    The question that I have for you relates to the total 
number of lines. When the President made his announcement--
dramatic speech, at 9 o'clock on August 9, 2001--he said that 
there would be some 63 stem cell lines made available. That 
number then went into the 70s, and has come back to about 19, 
and maybe now about 20 or 21--in the low 20s. Would it be 
possible--and some of those lines have problems on 
contamination with mouse feeder--would you be willing to 
explore, on behalf of the administration--and I understand the 
sensitivity of the issue when your letter to the Speaker was 
very diplomatically and delicately phrased--but would you be 
willing to consider a program which would determine the current 
number of lines which are available, and seek to raise the 
number of available lines to, say, 63, which was the original 
number that President Bush made available back in that famous 
August 2001 speech?
    Secretary Thompson. I would, Senator, but I want you to 
know the President is very committed to his policy. But I 
certainly will explore the possibility of seeing if there are 
other lines available that would meet the requirements of the 
President so that we could increase it. I think that is a very 
good suggestion, and I will follow through on that.
    Senator Specter. Well, I think that it could fit within the 
contour as to what the President has said when he has his own 
reasons and his own conclusions as to making the stem cells 
available. But having taken a stand on 63 lines, it seems to me 
that that would be accommodate-able on both policy and 
political reasons, and I would very much appreciate it if you 
would explore that.
    Secretary Thompson. Thank you very much.
    I would also like to point out that we're going to be 
funding, Senator--and I know that you appreciate this--three 
centers of excellence to try and encourage more scientists and 
more knowledge-based----
    Senator Specter. At least two in Pennsylvania, Mr. 
Secretary?
    Secretary Thompson. Pardon?
    Senator Specter. At least two in Pennsylvania?
    Secretary Thompson. Well, we certainly----
    Senator Harkin. And one in Iowa?
    Secretary Thompson. Well, certainly one in your favorite 
city, Senator, but I'm trying to get one into Wisconsin, too.
    One into Iowa, but I really think--what we've found is that 
a lot of scientists don't know how to replicate--once they get 
the stem cell line, they make mistakes, as far as growing them 
and then differentiating the cells. And what we're trying to do 
is set up courses first in order to teach them how to do that. 
Second, then, to bring together scientists of like-minded 
persuasion with regard to stem cell development and research 
and be able to see whether or not we can develop a more 
scientific knowledge, more scientists to go into the field, and 
that's what we're trying to do with these Centers of 
Excellence. I think it's a good idea and we're trying to do 
that. But the President and I both feel very strongly about the 
importance of investing in stem cell research.
    Senator Specter. The red light went on in the middle of 
your answer, and I'm going to stick to the time because we have 
so many witnesses, so I'll turn now to Senator Harkin.
    Secretary Thompson. Thank you, Senator Specter.
    Senator Specter. Thank you.
    Senator Harkin. Thank you again, Mr. Chairman.
    Mr. Secretary, thank you for your great leadership. I think 
you have set a new high standard for your position as Secretary 
of Health and Human Services, for you and for whoever may come 
after you, whenever that may be, in the distant future. But I 
just hope you will continue to use your bully pulpit, as you 
have been, and continue to push this, and not only just under 
your own jurisdiction, but for things outside.
    Now, kind of, what I'm leading to is that--for a little 
history here, in 1978 the Federal Trade Commission came out 
with proposed regulations to regulate advertising to kids. As 
I've researched this--and I was here at the time, but I was in 
the House, and I--kind of, a new Member, I probably didn't know 
that much about it at the time--but what happened is that the 
Soft Drink Association, certain food industries and stuff, got 
together--advertisers, advertising associations--and really 
bore down on Congress. Congress then passed a law basically 
prohibiting the FTC from regulating advertising to kids. I 
think it is factual to say that, today, the FTC has more 
authority to regulate advertising to us, adults, than it does 
to kids.
    Since that time, we have seen this plethora of ads now, and 
things directed at kids, everything from counting books, at the 
earliest ages, to all the things they see on television, and on 
and on.
    So as, sort of, our ombudsman, which you are, on 
healthcare, child health, and child obesity, give us your 
thoughts--or if the administration has any position on this--to 
ensure that the FTC has the same authority to regulate 
advertising to children as it does to adults. And considering 
any other regulatory steps that might be taken to address the 
improper targeting of junk-food advertising aimed at kids. I 
just wonder if you--any thoughts you have on that.
    Secretary Thompson. Senator, since I am not an expert in 
that subject, FTC, I don't know if I'm the right person to give 
any administrative opinion on that. But let me tell you my 
personal opinion. I think the more that we can really get the 
information out there to children, that's the future. And, 
Senator Murray said it best, there's very few schools that 
provide for physical education anymore. We've got to get more 
physical education back into schools. We've got to get proper 
advertising to our children wherever possible. That's a 
personal opinion of mine. And I think that you're going in the 
right direction, Senator Harkin, and I thank you for it, but I 
am not in any position to talk about that area, other than my 
own personal opinion.
    Senator Harkin. I understand. I just--you know, again, the 
idea being that--and I hope you will take a look at that and 
think about it, and perhaps think about talking about, at 
least, having some regulations on how we advertise junk food to 
kids.
    I had a poster here. Where is it? Give me that. I'll just 
show you some of the things happening now to kids, at the 
earliest age. This is some of the things that are happening 
now. Here is a counting book, ``Learn to Count From 1 to 10,'' 
the Oreo Cookie counting book. Here is a Goldfish counting 
board book, the M&Ms counting board book. Out of all that, 
there's one that is healthy; that's Cheerios. At least, I think 
it's fairly--and maybe I could be corrected on that, I don't 
know, but at least that's not real sugared up and everything. 
But is this kind of thing. You know, it's----
    Secretary Thompson. We're trying to do a better job on 
labeling through FDA, Senator Harkin, and----
    Senator Harkin. Say what?
    Secretary Thompson. We're trying to do a much better job 
through labeling at FDA. We just put out a rule, a final rule, 
on trans-fatty acids. And, for the first time, companies are 
going to have to put on the food label, as of January 1, 2006, 
the calories and the amounts of the trans-fatty acids.
    Senator Harkin. Our friends to the north, Canada, Great 
Britain, many European countries, I don't know who all, 
definitely do regulate advertising to kids when it comes to 
junk food and stuff like that. We just don't. And this goes 
back, again, to a law passed by Congress in 1980. We did, we 
passed a law.
    Secretary Thompson. I'm for you.
    Senator Harkin. I know. I just want to get this out there. 
You know? And----
    Secretary Thompson. I'm glad you do.
    Senator Harkin [continuing]. We need to move in that 
direction.
    Now, my red light is on, darn it. But preventative 
service--thank you for what you're doing in Medicare. We've got 
to continue to move in that direction. You've taken the first 
big steps in doing that. I've had a lot of medical people 
complain to me that--you know, that in Medicare, they just 
can't get the preventative kind of reimbursement for good 
preventative services for the elderly that they need. And, 
yeah, but if they get sick, they can get the curative, as you 
say. So the more you can push Medicare and help us to think 
about how we might change some--if we need to change the law, 
or if you can do it administratively--to get Medicare more into 
providing the up-front preventative services, especially 
smoking for the elderly, weight reduction, exercise, nutrition. 
Man, the elderly can prevent a lot of illnesses and stuff, and 
the impact on Medicare, if we just have those four things.
    Secretary Thompson. One fourth of the seniors that have 
diabetes don't know it, and they're in Medicare. So what we're 
going to do, if we don't start screening--we're going to wait 
until they get some kind of eye failure or renal failure or 
whatever. Then we're going to spend hundreds of thousands of 
dollars trying to get them back to health. It just doesn't make 
any sense at all. Thank you.
    Senator Harkin. Well, again, my highest accolades to you, 
Mr. Secretary. You've been a great leader.
    Senator Specter. Thank you, Senator Harkin.
    Senator Murray.
    Senator Murray. Well, Mr. Secretary, thank you very much 
for both your personal and professional modeling of appropriate 
behavior and what we need to do to focus on this, and I truly 
appreciate it.
    One of the things you talked about extensively in your 
remarks was moving to prevention, which I think is absolutely 
critical. And one of the best programs I have seen out in the 
communities that works on prevention and screening and early 
detection goes right to those 44 million uninsured people in 
this country, and that's the Health Community Access Program, 
the HCAP program, that has been so successful that we've worked 
on in a bipartisan way for a number of years, to fund, here in 
Congress, and I think it goes right to making sure that pre-
screening for diabetes, those kinds of things, happen at a 
community-based level for the uninsured.
    I noted that you recently took $20 million from that 
program to put into the AIDS Drug Assistance Program, another 
program I think we all support and care about, we've worked on 
in a bipartisan way. But I am deeply troubled that that funding 
came from a program that does precisely what you are working to 
do today, to do prevention, to do it in a community-based 
level, particularly for uninsured, who have the least access. 
And I'm--want to know, you know, what your intention is with 
that. I know we're going to work again very hard this session 
to fund that program, but raiding that $20 million is robbing 
Peter to pay Paul.
    Secretary Thompson. Well, let me respond to that. You know 
that only 15 percent of the money in that program can go to 
services, and that money had already been allocated to the 
services, and all the programs that were going to be funded 
under that particular program this year had been funded. So the 
extra money is what we----
    Senator Murray. But what it does is, it doesn't allow that 
program to expand. At a time when we know that prevention, that 
community-based models work the best, that the uninsured 
numbers are growing, it seems to me that we should be making 
sure that that program expands, not contracts.
    Secretary Thompson. Senator Murray, I--all I can tell you 
is that I'm not as favorably disposed to that program. I do not 
believe it has been as effective as other programs we have in 
the Department. You and I differ on that. But I want you to 
know that all of the things that were going to be funded under 
that program in this fiscal year were funded. Now, granted, 
there could have been new applications for new programs, but, 
at that particular time, when we redirected the money to the 
AIDS program, the money for this particular fiscal year had 
been used, and only 15--under the congressional law and under 
the law of the land, only 15 percent of the money in that 
program can be used for services, and that money had already 
been used.
    Senator Murray. Well, I do disagree with you on the 
effectiveness of that. And I've been out in my State, and 
visited a number of the CAP grantees who are doing tremendous 
things with uninsured people, young kids in particular, getting 
them in for early screening, early screening for diabetes, 
early screening for a number of things that--these kids don't 
have access to healthcare, and we know prevention is the way we 
need to go. And I would invite you out to my State to see 
specifically what some of these programs are doing.
    But I do want you to know that I plan to fight for this 
funding again. We've been doing it for 5 or more years, we've 
done it in a bipartisan way. We're going to fund this program, 
and I think we've got enough support in Congress to do that. I 
think it's what we do need to do.
    Secretary Thompson. I just think there are other programs 
that we have in the Department that are much more effective and 
do a better job, Senator Murray. And you and I won't ever agree 
with that, but I just----
    Senator Murray. Well, I'd love to have----
    Secretary Thompson [continuing]. I think your State is 
doing some wonderful things----
    Senator Murray [continuing]. I'd love to have you come out 
and see some of the----
    Secretary Thompson. I will----
    Senator Murray [continuing]. Programs in my State----
    Secretary Thompson [continuing]. Be more than happy to come 
out there.
    Senator Murray [continuing]. That really are----
    Secretary Thompson. I'd be more than happy to come out and 
spend the day with you----
    Senator Murray [continuing]. Fabulous.
    Secretary Thompson [continuing]. Senator Murray, and watch 
your programs.
    Senator Murray. We'll be----
    Secretary Thompson. I'd love that.
    Senator Murray. All right.
    Secretary Thompson. I do it----
    Senator Murray. Let me----
    Secretary Thompson [continuing]. All over the country, so 
I'd be more than happy to do it.
    Senator Murray. Well, know we're going to be fighting for 
the funding here, and----
    Secretary Thompson. Thank you.
    Senator Murray [continuing]. I'd take you up on that.
    But let me ask you, really quickly, on another issue, and 
that's the 5 A Day Program that--I've been working with our 
apple and vegetable growers to do the 5 A Day Program that CDC 
has been promoting.
    Secretary Thompson. And agriculture.
    Senator Murray. And agriculture. I think it's great. I'm a 
huge supporter.
    Secretary Thompson. Good for you.
    Senator Murray. I'm concerned that the only way people can 
get information is on the CDC Web site, which, you know, I've 
got to tell you, as a parent, you just don't go cruising 
through the CDC Web site to get information about that. How can 
we do a better job of getting that actually into the hands of 
parents who need that kind of information? Is there a lead 
agency? Do you have a way of making sure that all of the 
different agencies that work with this can get the information 
out to people?
    Secretary Thompson. Sure, absolutely. It's a good point, 
and I'm always looking for good suggestions and ideas on how to 
improve the operation of the Department. I'll take that back 
and see if we can't get it on our master Web page. And I also 
will ask Ann Veneman to put it on her Web page in Department of 
Agriculture.
    Senator Murray. Okay, appreciate it. Thank you very much.
    Secretary Thompson. Thank you for your idea.
    Senator Specter. Secretary Thompson, Senator Harkin has a 
30-second Q&A.
    Secretary Thompson. Yes.
    Senator Harkin. Very short. I see we have Dr. Dean Ornish 
going to be testifying later. This has to do with----
    Senator Specter. Half the time's gone, Tom.
    Senator Harkin [continuing]. With the food pyramid. Are you 
working in collaboration with the Department of Agriculture to 
redefine and redesign the food pyramid?
    Secretary Thompson. Department of Agriculture has complete 
jurisdiction of the food pyramid, but we are--we're the lead 
agency this year with regard to nutrition, and we're holding 
our hearings right now. The last hearing's going to be in 
August, and we're going to have a report, in collaboration with 
the Department of Agriculture, in December of this year, with 
regard to fruits and vegetables, and also to nutrition.
    Senator Harkin. Well, I'm--Agriculture may have 
jurisdiction over that. They may. But you're the experts in 
this, and your Department is, and I hope there is a close 
collaboration between Agriculture and you on the food pyramid.
    Secretary Thompson. There is, Senator. Very much so.
    Senator Harkin. Okay. I'm----
    Secretary Thompson. And the food pyramid, I think, is going 
to be based upon the hearings and meetings we're having right 
now, in which the Department of Health and Human Services is 
the lead agency.
    Senator Harkin. Because it is my opinion, having been, you 
know, in Agriculture--I've been chairman and ranking member of 
that committee--and also here, that your Department needs to 
have the majority of input into designing that food pyramid. 
But you are collaborating with them.
    Secretary Thompson. Yes, we are. We're having joint 
meetings right now. And the last joint meeting's going to be in 
August. Then we're going to have a report this year. But before 
I issue the report--I'm going to get the scientific results in 
August--I'd like to come up and sit down and go over those with 
you in September/October, Senator Harkin.
    Senator Harkin. I feel better about it now. Thank you.
    Senator Specter. Thank you very much, Senator Harkin.
    Thank you, Mr. Secretary. We very much appreciate your 
coming in. We like your new ideas, and we urge you to implement 
them as fast as possible.
    Thank you.
    Secretary Thompson. Thank you. And let me say, in 
conclusion, you people have been great. This, to me, like I 
said at the beginning, is probably the most important hearing 
that could be held on the most important subject facing 
America, so thank you. On my behalf, thank you.

STATEMENT OF KENNETH L. GLADISH, Ph.D., NATIONAL 
            EXECUTIVE DIRECTOR, YMCA OF THE USA
    Senator Specter. Thank you, Mr. Secretary.
    We turn now to Panel Two, Dr. Ken Gladish, Mr. Vernon 
Delpesce, Mr. Eric Mann.
    Dr. Gladish is the national executive director of the YMCA 
for the United States. Prior to his current position, he was 
executive director of the Indianapolis Foundation for the 
William E. English Foundation; bachelors degree from Hanover 
College in Indiana, and a masters and doctorate degrees in 
foreign affairs from the University of Virginia.
    Thank you for joining us, Dr. Gladish, and we look forward 
to your testimony.
    Dr. Gladish. Mr. Chairman, Mr. Harkin, thank you so very 
much for the invitation. I'm pleased to be here representing 
the more than 2,500 YMCAs in American communities.
    You know, for 150 years the YMCA has been engaged alongside 
American kids and their families and communities on seeking to 
support and encourage the development of healthy, balanced 
lifestyles. The broad challenge of finding a healthier, more 
life-enhancing way to live demands a renewed and aggressive 
social response. As the Secretary said--incidentally, the 
Secretary is a great friend of the YMCA, both in his 
governorship of Wisconsin and in his current role--we agree 
with the Senators that the emphasis on prevention is a key to 
the future of a healthier United States.
    The YMCA serves more than 18 million American citizens, 9 
million under the age of 18, 9 million over the age of 18. We 
work largely with men and women who are motivated to seek the 
improvement of their own health. But given our capacity and 
spread throughout America in 10,000 delivery sites, very deeply 
engaged in the State of Pennsylvania and the State of Iowa, 
we've come to the same conclusion that the Senators have, the 
subcommittee has, the HHS has, and other leaders in American 
health life, we need a renewed attention to prevention. And so 
the YMCA, in response to the rising attention and concern 
around the rise of chronic disease--most especially obesity, 
diabetes, and asthma--is announcing today a new project called 
Activate America, which will provide opportunity in 14 States 
and cities around the country to have the YMCA help convene 
groups of community leaders to focus on how we might, together, 
in a collaborative way, in a comprehensive way, in a community 
way, address the issue of the prevention of chronic disease.
    We realize that the Federal Government cannot solve this 
problem for American communities and American citizens, that, 
really, self-reliance and individual responsibility at the 
family level is important. But the Federal Government can play 
an important role in at least three distinct fashions. First, 
by rising attention to the issue, which the subcommittee and 
the Senators are doing today. Second, providing a rhetorical 
context in which the real facts about the challenges to 
American citizens in these arenas are recognized. Third, by 
providing incentives for communities and charitable 
organizations like ours and other private-sector enterprises to 
focus on this activity and to make certain that there are means 
and methods by which American communities and families can lead 
their children and themselves to a healthier circumstance.
    Our Activate America Project does engage support from a 
broad range of the sectors in American life. Public officials 
in each of the 14 communities, including Pittsburgh, 
Pennsylvania, and Des Moines, Iowa--I'm accompanied by the 
chief executives of the YMCAs of those two communities--will be 
actively engaged in this work. Local mayors and city councils 
and county and public-health officials will be engaged. And we 
have the extraordinary and strong support of two major American 
companies--JCPenney Corporation, through its after-school fund, 
and the Kimberly-Clark Corporation, who are great friends of 
the YMCA, of their own employees in the communities that they 
serve.
    Our effort is also focused on transforming our own work and 
outreach. We recognized, as we crossed the divide of the 20th 
into the 21st century, that the YMCA, as one of America's 
leading charitable and not-for-profit entities, is probably 
more qualified than perhaps any other community-based 
organization to convene groups around this question. But we 
also need to change our own behavior inside our own 2,500-some 
physical facilities. We've been at this work since 1851. You 
know that we invented, in the YMCA, basketball and volleyball 
and racquetball, along with a good bit of the advances in 
physical education. We are, likewise, concerned, along with the 
rest of the community and parents of America, about the decline 
of physical education in American schools. And we know that we 
reach millions of young people through our own education and 
recreation programs, but we are not, as a community-based 
organization, doing enough yet. So our associations are 
committed to a decade-long effort to transform our own work in 
this regard, to focus more effectively and efficiently on 
prevention, to establish a baseline for active engagement of 
those that are not, on their own will and witness, seeking out 
the opportunity to improve their own health. And, like the 
Secretary and the Senators have said, that a lot of this is 
about common sense, but, sadly, we don't provide enough 
encouragement for American kids and families to follow the 
commonsense evidence of both research and practice and common 
experience of our grandmothers and grandfathers.

                           PREPARED STATEMENT

    The YMCA is pleased to be here today to testify on behalf 
of the importance of prevention, to commit our best efforts to 
our Activate America enterprise, to pledge our collaboration 
with the public and private sectors and our cooperation with 
key civic leaders, like yourselves. Senators, we're pleased to 
be here. We appreciate the attention to the effort. And I'm 
also especially honored to be present with my colleagues from 
Des Moines, Iowa and Pittsburgh, Pennsylvania.
    [The statement follows:]

                Prepared Statement of Kenneth L. Gladish

    Mr. Chairman and Members of the Subcommittee: I am Ken Gladish and 
I serve as the National Executive Director of the YMCA of the USA. 
Secretary Thompson, thank you for being so outspoken in your support of 
programs that prevent chronic diseases. Your leadership by example has 
been extraordinary. Senator Specter, Senator Harkin, and members of 
this subcommittee, thank you for your genuine commitment to ensuring 
that disease prevention programs remain funded and a priority for this 
Congress. We know there are many programs vying for your support and 
everyone in this room thanks you for keeping health promotion at the 
top of your list.
    The broad challenge of finding a healthier, more life-enhancing way 
to live demands a fundamentally new and aggressive social response. No 
longer can we afford to think of America's health and wellness as the 
sole responsibility of the medical and public health profession. 
Collectively, all sectors of our communities and nation must come 
together to advance a common strategy and sincere commitment to chronic 
disease prevention in order to remove the barriers and increase the 
supports for healthy living for all of the kids and families of our 
great country.
    As America's oldest and largest community-based, charitable 
organization with a core mission focus on healthy living, the YMCA is 
committed to organizing a broad based movement to help Americans find 
healthier ways to live. Indeed, as a leading American charity, it is 
our civic and community responsibility that calls us to act and demand 
the best efforts of our fellow nonprofits and the entire philanthropic 
sector. Our tax-exemption provided by the government and the trust 
afforded us by the American public, manifested through volunteer hours 
and donated dollars, demands our response to this public crisis. I have 
attached a chart to my written testimony that is submitted for the 
record which shows the depth and breadth of the YMCA movement and our 
unique qualifications for tackling this issue.
    Let me be clear: the nation's 2,575 local YMCAs see the obesity and 
chronic disease crisis in this country as the issue that will define 
our organization's role in society for years to come. Just as YMCAs' 
responded to the shortage of childcare in the 1970's--quickly becoming 
the nation's largest provider of childcare--we are now galvanized 
around the need to collectively respond to society's great struggle to 
live healthier and happier.
    Recognizing our public and moral responsibility to fully engage 
ourselves in the battle against obesity and related chronic diseases, 
the YMCA has launched a long-term initiative, called YMCA Activate 
America<SUP>TM</SUP>. This effort has three core principles:
  --One--we will take a more holistic approach to health. YMCAs will 
        strengthen their long-standing commitment to health through 
        spirit, mind and body.
  --Two--we will develop parallel program and public policy strategies. 
        YMCAs will help their communities, states, and the nation, 
        develop and implement policies to encourage healthy living.
  --Three--we will embrace collaboration as a core methodology. YMCAs 
        will reach out to, and work more effectively with, government, 
        business, health, foundations, and academic and research 
        sectors, among others.
    The first plank of this effort is an internally-focused, three-year 
research and development effort aimed at developing new YMCA 
operational and program strategies to support healthy living by all 
Americans--especially youth and racial, ethnic and low-income groups at 
greatest risk. In addition to receiving expert advice from the CDC and 
the Robert Wood Johnson Foundation, we are investing millions of our 
own dollars and are partnering with scientists at Harvard and Stanford 
University to better understand and respond to the central question: 
``What does a person need to sustain positive lifestyle health 
changes?'' This effort is no less than a complete re-tooling of how 
YMCAs serve our 19 million members.
    The second plank of this effort is an external effort aimed at 
broad community mobilization and is why I am before you today. The 
centerpiece of this external effort will be a national conference this 
September in Washington, DC. Through the support of our committed and 
engaged corporate partners--JC Penney Afterschool and the Kimberly-
Clark Corporation--14 projects are being kicked-off today in 14 states 
involving diverse communities from throughout the country. Each 
community will be represented by a team of civic, business and public 
leaders that include YMCAs and other sectors of the community, such as 
public health, schools, businesses, park and recreation departments, 
faith-communities, and philanthropic and academic institutions. The 
community leadership teams will participate in the September conference 
to learn best practices and create action plans aimed at promoting 
healthier living. Two of the cities that will participate in the 
conference are with me this morning: Des Moines, Iowa, and Pittsburgh, 
Pennsylvania. In a moment you will hear from leaders from each of these 
cities who will explain why they are involved in the YMCA Activate 
America<SUP>TM</SUP> conference and what they hope to accomplish in 
their community.
    At our conference, we will not be reinventing the wheel by creating 
a new model for community mobilization. There are plenty of successful 
models already available that the YMCA Activate AmericaTM communities 
will be able to learn from and adopt. For example, the federal REACH 
program--funded through CDC--has been in existence for several years 
and supports local programs aimed at eliminating racial and ethnic 
health disparities. We know this program is successful and CDC 
officials will attend our conference and help our communities 
understand why REACH works and what they need to do to achieve similar 
success in their community. The same is true for Secretary Thompson's 
Steps to a HealthierUS program and Active Living By Design, a program 
funded by the Robert Wood Johnson Foundation. Each of these three 
programs will serve as templates for our communities to follow and 
replicate.
    Let me be clear that this effort is not about getting more people 
into YMCAs. In fact, a true measure of success will be helping people 
understand that physical activity is not something that must be done 
only in a Y facility, but something that must be incorporated into 
everyday living. This effort is about each community leveraging 
available resources through existing fine organizations like the Y's, 
the Parks and Recreation Departments, along with programs offered by 
disease prevention organizations such as the American Cancer Society, 
the American Heart Association, AARP, the Public Health Departments and 
others. YMCAs along with like-minded organizations will work with 
government and community leaders to design a community approach to 
improving the health and wellness of our citizens, lowering health care 
cost in our country and creating strong kids, strong families and 
strong communities.
    Fortunately, at the federal level we have leaders like you who 
understand that community-based and community-led programs provide the 
only chance of creating lasting behavior change. Senator Specter--who 
has long-championed community health promotion programs--and Senator 
Harkin--who recently introduced YMCA-endorsed legislation that contains 
many excellent provisions aimed at strengthening community-based health 
programs--are both to be commended for your leadership and vision. I 
thank you for holding this hearing and I look forward to our continued 
work together.
    YMCA's Unique Qualifications to Build Healthy Communities:
  --YMCAs are located in all 50 states, with 2575 YMCAs serving over 
        10,000 diverse communities across the country--no other 
        community-based organizations have the same reach.
  --Collectively, YMCAs have more than 624,000 committed volunteers 
        that can further promote the goals of healthy communities. 
        Currently, YMCAs involve 18.9 million people each year, 
        including 9 million youth under age 18 in a wide variety of 
        programs.
  --The YMCAs have a distinguished track record of community-level 
        leadership and collaboration and they have a long history of 
        raising funds to assist public health efforts and to ensuring 
        that no one is denied access to programs for a lack of ability 
        to pay. YMCAs raise millions of dollars that benefit local 
        communities. YMCAs collectively were ranked No.1 in The Non-
        Profit Times Top 100 (November 2003) after raising $714 million 
        in pubic support to be used for scholarships, subsidies and 
        other community services.
  --Health and fitness have been part of YMCA's charitable mission for 
        more than 100 years. YMCAs have a track record and ability to 
        reach individuals of all ages through their programs and can 
        support communities in delivering programs that promote healthy 
        behaviors and prevent diseases and complications, such as 
        diabetes and obesity.
    --The nation's 2,575 YMCAs are collectively one of the largest 
            providers of health and wellness programs and activities in 
            the country. YMCAs have infrastructure, commitment and 
            flexibility to meet the needs of communities across the 
            country.
    --YMCAs are also the nation's largest provider of child care and 
            afterschool programs, collectively serving 7.5 million 
            school-age kids in afterschool programs and 500,000 
            preschoolers at more than 9,000 child care sites 
            nationwide.
    --YMCAs operate 2,000 resident camps serving youth, teens and 
            families--most offer age-appropriate physical activity.
    --YMCAs are the largest providers of youth sports programming year 
            round, serving over 4.5 million youth in programs such as 
            basketball, swimming, soccer, t-ball, volleyball and flag 
            football, which get youth moving while developing a sense 
            of teamwork, good sportsmanship, and self-confidence.
    --Recognizing the need for baby boomers to get and stay healthy, 62 
            percent of YMCAs offer older adult fitness programs; 38 
            percent older adult aquatic classes; 21 percent offer 
            walking classes/clubs; and 36 percent offer strength 
            training for older adults.
  --Hundreds of YMCAs across the country already offer a wide array of 
        fitness and wellness programs that are delivered to 
        communities. Annual surveys of YMCAs enable the compiling of 
        the following statistics which show the number of YMCAs that 
        offer programs and services in 2003 related to youth and adult 
        activity (note: YMCAs offer far more health and wellness 
        programs than listed below, but due to space limits, only a 
        representative sample can be provided):

------------------------------------------------------------------------
                                                              Number of
                          Program                               YMCAs
                                                               offering
------------------------------------------------------------------------
YMCA Healthy Kids DayTM....................................        1,294
Programs in aquatics for people with physical disabilities.          564
Preschool movement.........................................          718
Programs specific for people with diabetes.................          135
Physical education for homeschoolers.......................          598
Programs for people with chronic disease...................          109
Parent-child exercise classes..............................          424
Adult obesity programs (for obese adults)..................          224
Teen fitness/exercise......................................          887
Child obesity programs (for obese children)................          351
Youth fitness/exercise.....................................          952
Weight management/nutrition programs.......................          655
Older adult fitness/exercise programs......................        1,281
Health risk/lifestyle appraisals...........................          524
Strength training classes for older adults.................          828
Corporate health and fitness programs......................          417
Strength training programs for youth.......................          851
Walking classes/clubs......................................          483
Youth sports...............................................        1,661
Water fitness classes......................................        1,357
Day camps for youth........................................        1,678
Tobacco programs (2002 statistic, question not asked in              112
 2003).....................................................
Arthritis Aquatics classes.................................        1,013
------------------------------------------------------------------------

  --YMCAs offer the physical facilities for community activities and 
        meetings, and YMCAs can provide programs out in the communities 
        for further participation by target populations.
  --YMCAs collaborations with government agencies, schools, churches 
        and others make YMCAs a stronger community partner. Sample 
        collaborations included in 2003:

------------------------------------------------------------------------
                                                              Number of
                       Collaboration                            YMCAs
------------------------------------------------------------------------
Federal Government agency..................................          412
Local government agency....................................        1,408
State government agency....................................          827
Elementary school..........................................        1,531
Middle school..............................................        1,193
High school................................................        1,118
Churches...................................................        1,138
Parks and Recreation.......................................        1,004
Hospitals..................................................          898
Corporations...............................................          668
Community Coalitions.......................................          508
------------------------------------------------------------------------

STATEMENT OF VERNON E. DELPESCE, CHIEF EXECUTIVE 
            OFFICER, YMCA OF GREATER DES MOINES
    Senator Specter. Thank you very much, Dr. Gladish.
    We turn now to Mr. Vernon Delpesce, president and CEO of 
the YMCA of Greater Des Moines. Prior to this assignment, he 
held YMCA positions in Houston and Columbus, Ohio.
    Thank you for joining us, Mr. Delpesce, and we look forward 
to your testimony.
    Mr. Delpesce. Thank you.
    Good morning. My name is Vernon Delpesce, as stated, and 
I'm the president and CEO of the YMCA of Greater Des Moines.
    I want to begin by thanking both Senator Specter and my 
Senator, Tom Harkin, for their interest and commitment in the 
prevention field. I especially applaud your efforts as they 
relate to children and families, which are of great interest to 
the YMCA. And I'd just thank you for the opportunity to come 
here and visit with you today.
    As Senator Harkin knows, as Secretary Thompson talked about 
Wisconsin and some of the great foods they have there that may 
hinder their ability to stay fit, in Iowa we have a 
longstanding tradition at our State fair, which comes up in a 
couple of weeks, that any particular food--any type of food 
there is that you can put on a stick and deep-fry, is sold at 
our State fair.
    It is one of the highlights of the fair, but it certainly 
does not contribute to our effort here today. So we have a ways 
to go in terms of the culture of our State.
    But Iowa is certainly an example of what is occurring 
across the country related to chronic disease. In the last 
decade, the number of people who are obese in Iowa has almost 
doubled--almost doubled--in the last 10 years. The prevalence 
of diabetes has also grown at an alarming rate, especially in 
children and minorities in the State.
    According to the Prevention Research Center at the 
University of Iowa, 62 percent of Iowans today--62 percent--are 
either overweight or obese. I did include an attachment with my 
testimony that has some further information regarding that.
    Preventable chronic disease is costly today, but, if the 
trend continues, it will be very devastating to our future. And 
the only way to turn it around is going to be through 
prevention.
    In Des Moines, various community leaders have stepped up to 
the plate and recognized these trends, and have begun to take 
action. A couple of examples, Principal Financial Group and 
Meredith Corporation, two of our largest employers, have taken 
on very extensive wellness programs. The State of Iowa has 
sponsored the Iowa Games, as well as Lighten Up Iowa, that will 
focus on helping people be more active and lose weight.
    YMCA in Des Moines, we impact about 56,000 people per year, 
about half of them being youth. And we're excited to be a part 
of this. We, of course, are doing what we can--our part, too. 
We've just entered into a collaborative effort with the 
American Heart Association, the American Diabetes Association, 
and the American Cancer Society to be able to get their health-
related materials in the hands of the people who need it the 
most. We recognize them as the real experts when it comes to 
providing education, as we're the experts in providing the 
activity. Also, reaching teens is important to us, and, Senator 
Harkin, you've helped us with that in the past, and greatly 
expanded our teen programming at 21 cities across the State.
    One other thing that's very important to us in Des Moines, 
as it is, I know, to all YMCAs, and that is what we do in 
disadvantaged communities. Last year, in Des Moines, we gave 
about $1.1 million worth of scholarships and financial aid away 
to disadvantaged people in our community. But we are committed 
that people in low-income communities deserve, and we will 
provide them with, the same level of programs and activities 
and services as any other community in town. And so we're very 
proud of that.
    As we begin to work on this, it's been very exciting to 
recruit the folks that will help us with Activate America, and 
I just would like to share with you some of our community team 
leaders who are going to help us with this effort. Former 
Governor Terry Branstad, who is now the president of Des Moines 
University, which is an osteopathic medical school, will help 
us. Mary Mintzer Hansen, who is the director of the Iowa 
Department of Public Health--as a matter of fact, Mary shared 
with me that they are working on a strategic plan for their 
health department throughout the State, and Activate America 
actually fit--she said, ``We could not have written it better 
to fit into the strategic plan.'' So we're glad to be working 
with her. Dr. John Lowe, who is with the University of Iowa, 
Prevention Research Center; Dr. Ed Hertko, a retired physician 
and board member for American Diabetes Association; Kay 
Halvorson, who's the Wellness Director at Principal Financial 
Group; and a couple of others. As a matter of fact, I will 
share with you, the Mayor--who is not listed on here--the Mayor 
of Des Moines has actually, at his request, wants to serve on 
this committee because he sees the great impact that it can 
have on the city of Des Moines. And so, again, I'm confident 
that, with the folks we have at the table, we're going to make 
a big difference. But the--I also have to share with you--the 
numbers and the percentages and all don't mean as much as just 
the people that we have with us. And I have Ellie Westercamp, a 
9-year-old who will be with us later today sharing her story. 
And it's the real people that it's really about, and the people 
we can help.

                           PREPARED STATEMENT

    Again, I thank you for the opportunity to be here today, 
and I applaud what you're doing for this prevention effort.
    [The statement follows:]

                Prepared Statement of Vernon E. Delpesce

    Good morning, my name is Vernon Delpesce and I am the President of 
the Des Moines YMCA. I want to begin by thanking Senator Specter and my 
Senator, Tom Harkin, for their interest in preventing chronic disease 
in this country through programs that promote healthy lifestyles.
    The state of Iowa is an example of what is occurring across the 
country related to chronic disease. In the last decade the number of 
people who are obese has almost doubled. The prevalence of diabetes has 
also grown at an alarming rate, especially in children and minorities. 
According to the Prevention Research Center at the University of Iowa, 
62 percent of Iowans are overweight or obese (See Attachment A). 
Preventable chronic disease is costly today, but if this trend 
continues it could be devastating to our future. I believe the only way 
to turn things around is through prevention.
    In Des Moines, various community leaders have recognized these 
trends and are starting to take action. Local corporations like 
Principal Financial Group and Meredith Corporation are providing 
extensive wellness programs for their employees. And our state health 
department sponsors the Iowa Games and Lighten Up Iowa which involve 
thousands of people who are becoming more active and losing weight.
    The Des Moines YMCA has also responded. We currently serve 56,000 
people annually--one half of these are under the age of 18. Through a 
collaborative effort with the American Heart Association, the American 
Diabetes Association, and the American Cancer Society, we are putting 
health related educational materials in the hands of the people who 
need it the most. Thanks to the support of Senator Harkin, we are 
reaching more teens than ever before by expanding teen programs in 21 
cities across Iowa. In addition, we have a commitment and 
responsibility to serve low income individuals and families. Like all 
YMCAs throughout the country, we do not turn people away due to an 
inability to pay. Last year alone we provided over $1.1 million in 
scholarships and subsidies to ensure that our programs are open and 
accessible to all so disadvantaged people have the same access to our 
health and fitness programs as everyone else.
    The dramatic increase in obesity and chronic disease in Iowa has 
caused us to provide a renewed emphasis on our programs that focus on 
physical activity and healthy eating. As a matter of fact last Saturday 
we completed two one-week camps for children with diabetes. Three 
hundred and fifty youth with diabetes and sixty five medical personnel 
attended YMCA Camp Hertko Hollow to learn good nutrition habits. They 
also learned how to monitor their blood sugar and give themselves 
insulin injections. They had a lot of fun; and yes Senator Harkin, they 
learned the importance of eating fresh fruits and vegetables.
    Despite all of our efforts--and the efforts of the public health 
community in the city--we are losing ground. This is why Des Moines has 
decided to participate in the YMCA's Activate America project. In Des 
Moines, our team consists of 8 community leaders including: Former 
Governor Terry Branstad, the President of Des Moines University; Mary 
Hansen, the Director of Iowa Department of Public Health; Dr. John 
Lowe, the Director of the Prevention Research Center at the University 
of Iowa; Dr. Ed Hertko, retired physician and board member of the 
American Diabetes Association; Kaye Halvorson, the Wellness Director 
for the Principal Financial Group; Sam Carroll, Executive Director of 
Is It Good For The Kids?; Doug Reichardt, the Chairman and CEO of 
Holmes Murphy a large insurance brokerage firm and chairman of the Iowa 
Games; and myself.
    I am confident that the results of our effort will begin to reverse 
the trend; however it is more important for me to remember that behind 
the numbers and percentages are people. People like 9-year-old Ellie 
Westercamp who is with me today. Ellie overcame severe asthma by 
increasing her activity through a swimming program. It is about the 
real people who live healthier and more fulfilling lives as a result of 
our programs that keep me motivated to work on projects like Activate 
America.
    Again, I thank you for your commitment to prevention and I look 
forward to our work together in the months and years ahead.

                     Attachment A.--Obesity in Iowa

      [Provided by Prevention Research Center, University of Iowa]

    Since 1990, the prevalence of adult obesity in Iowa has increased 
from 12.8 percent to almost 23 percent. The following chart shows the 
obesity rates in Iowa compared to those in the United States.\1\
---------------------------------------------------------------------------
    \1\ CDC. (2004). Behavioral Risk Factors Surveillance System: 
Trends Data--Nationwide vs. Iowa. Retrieved July 9, 2004, from http://
apps.nccd.cdc.gov/brfss/Trends/
trendchart_c.asp?state_c=IA&state=US&qkey=10010&SUBMIT1=Go 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Since 1990, the prevalence of overweight adults in Iowa has 
increased from 35.7 percent to over 38 percent. The following chart 
shows the overweight rates in Iowa compared to those in the United 
States.\2\
---------------------------------------------------------------------------
    \2\ CDC. (2004). Diabetes Surveillance System. Retrieved July 9, 
2004, from www.cdc.gov/diabetes/statistics/prev/national/tprevage.htm 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In 2002, 62.2 percent of Iowans were either overweight or obese.
    According to the CDC, Iowa has the 18th highest rate of obesity in 
the United States. The following table shows the obesity rates for the 
20 states that have the highest obesity rates in the country.\3\
---------------------------------------------------------------------------
    \3\ CDC. (2004). Obesity Trends. Retrieved July 9, 2004, from 
www.cdc.gov/nccdphp/dnpa/obesity/trend/prev_reg.htm

  STATES WITH THE HIGHEST OBESITY PREVALENCE IN THE UNITED STATES, 2001
------------------------------------------------------------------------
                                                               Obesity
                                  State                          rate
------------------------------------------------------------------------
     West Virginia                                                27.5
     Mississippi                                                  26.8
     South Carolina                                               25.8
     Alabama                                                      25.7
     Louisiana                                                    25.5
     Texas                                                        25.5
     Michigan                                                     25.4
     Tennessee                                                    24.6
     Kentucky                                                     24.5
     Indiana                                                      24.1
     Pennsylvania                                                 24.0
     Arkansas                                                     23.7
     North Carolina                                               23.5
     Georgia                                                      23.5
     Missouri                                                     23.2
     Ohio                                                         23.0
     Oklahoma                                                     22.9
     IOWA                                                         22.9
     Kansas                                                       22.8
     Wisconsin                                                    21.6
------------------------------------------------------------------------

    In Iowa, the prevalence of diabetes has increased from 4.4 percent 
to 5.7 percent since 1994. The chart below shows the rates of diabetes 
in Iowa compared to the rates of diabetes in the United States.\2\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

STATEMENT OF ERIC K. MANN, PRESIDENT AND CEO, 
            PITTSBURGH METROPOLITAN YMCA
    Senator Specter. Thank you, Mr. Delpesce.
    We turn now to Mr. Eric Mann, president and chief executive 
officer of the YMCA of Pittsburgh; bachelor of science from 
Mars Hill College in Mars Hill, North Carolina, and did 
graduate work at Loyola Marymount in Los Angeles.
    Thank you for being with us, Mr. Mann, and the floor is 
yours.
    Mr. Mann. Thank you, Mr. Chairman and Senator Harkin and 
members of the subcommittee.
    I do thank you for giving us the opportunity. Senator 
Specter you are a friend of ours, and have helped us in a lot 
of ways in some programs in our community that work in 
underprivileged communities, so I thank you for that.
    The city of Pittsburgh and the YMCA, we are embarked upon 
this health and wellness and this lifestyle program. You were 
talking about the--what happens about recently attributed 
expenditures. Pennsylvania, alone, has $4.1 million that's 
attributed, that goes out because of obesity-related issues.
    We are very fortunate to be in a community that has very 
strong partners that we're going to be working with our 
Activate America Program. We are working with Highmark Blue 
Cross Blue Shield, which is the largest healthcare insurer in 
Pennsylvania. We have, also, UPMC, which is the largest 
healthcare provider, that's going to be one of our partners. We 
have the Catholic church, the Pittsburgh diocese, that will be 
part of our team. We've recruited the Center for Minority 
Health at the University of Pittsburgh that will be part of our 
team that will help the YMCA start to address the critical 
needs for our community.
    The beauty about Activate America is that it is providing 
the vehicle for like-minded organizations to address this issue 
as one group, versus five or six different groups, at the local 
level. And so as you speak about, ``How can you make a real 
change in this particular industry,'' I think this is the kind 
of process that puts public and private partners together to 
make a real impact.
    In Pittsburgh, we serve about 164,000 participants, of 
which half are youth. We are the largest provider of after-
school childcare, where we serve 2,000 children a day. And the 
YMCA, as part of its mission, we provide health and fitness 
programs to those 2,000 children per day at our sites. Along 
with partnering with the Catholic church in a program called 
Fit For Life, we provide the instructors and go in and teach 
the physical education that they're not able to do.
    We are committed to this. Our partners in this is really 
looking forward to how we can make a real impact and get the 
services to the people that need it. We, like the YMCAs across 
the country, we do not turn anyone away because of their 
ability to pay. And so we believe, because of our position in 
the community, because of our significant partners, and because 
this is something that's going to have focus, this will make a 
tremendous impact at reversing some of the issues and some of 
the trends that we see. It's going to take this kind of 
gargantuan effort in order for us to do that.

                           PREPARED STATEMENT

    So I appreciate the time, and I understand that this is a 
very, very important issue, and we're excited about the 
opportunity. And, again, I thank you, Senator Specter, as my 
home Senator, for what you're doing in this particular effort.
    [The statement follows:]

                   Prepared Statement of Eric K. Mann

    Mr. Chairman, Senator Harkin and Members of the Subcommittee, my 
name is Eric Mann, and I am the President and CEO of the Pittsburgh 
Metropolitan YMCA. I want to begin by thanking my Senator, Arlen 
Specter, and Senator Tom Harkin, for their commitment to preventing 
chronic disease in this country through programs that promote healthy 
lifestyles and help people to eat better and get active. I specifically 
applaud this subcommittee's commitment to encourage healthy lifestyles 
among our nation's kids, families and communities. This is important 
work and I thank you for your commitment and for inviting me to speak 
here today.
    The city of Pittsburgh provides a good example to showcase trends 
in chronic disease. Over 75 percent of adults in Pittsburgh report an 
average consumption of less than 5 servings of fruit and vegetables per 
day. In Pennsylvania, obesity-attributable expenditures for direct 
medical expenses are estimated to be $4.138 billion.
    Various community leaders in Pittsburgh have recognized these 
trends and are starting to take action. Highmark Blue Cross/Blue Shield 
is working with the public school system on a health and fitness 
curriculum for all elementary children. The Centre for Minority Health 
at the University of Pittsburgh sponsored a month long community 
awareness program highlighting health issues in the Black community.
    As the leading charitable community-service organization in the 
city, the Pittsburgh Metropolitan YMCA has also responded. We currently 
serve 164,377 individuals--one half of these are under the age of 18. 
We have a specific commitment to the overall health and wellness of our 
youth and seniors who live in our under-resourced and minority 
communities and would like to thank Senator Specter for the support he 
has given us for our work in these communities. Like all YMCAs 
throughout the country, we do not turn people away due to an inability 
to pay and last year provided $395,133 in scholarships and subsidies to 
ensure that our programs are open and accessible to all.
    The dramatic increase in obesity and chronic disease in Pittsburgh 
has caused us to provide a renewed emphasis on our programs that focus 
on physical activity and healthy eating. We offer Fit for Life, which 
is a collaborative effort between the Pittsburgh YMCA and the Catholic 
diocese to provide physical education for elementary school children. 
Our Spark (Sports, Play & Recreation for Kids) program is a 
collaboration with Highmark, designed to develop health and fitness 
curriculum for the 2,000 children who are served through our 50 
different after-school sites. Through food banks and other food 
programs, we are serving 3,708 families.
    What is becoming very clear in Pittsburgh is that all sectors of 
the community must come together and collectively develop a unified 
strategy for preventing chronic diseases. This is why Pittsburgh has 
decided to participate in the YMCA's Activate America Pioneering 
Healthier Communities project. In Pittsburgh, our team consists of 8 
community leaders, including the key leaders from Highmark Blue Cross/
Blue Shield, Pennsylvania's largest health insurer, UPMC, the region's 
largest health care organization, along with the Center for Minority 
Health and the Pittsburgh Catholic diocese. Our purpose is to become 
dramatically more effective in partnering to improve the spirit, mind 
and body of our kids, families and communities.
    I am confident that the results of our effort will be dramatic. As 
an example of exactly what dramatic' means, I have Marty Balawejder 
with me here today. Marty has literally turned his life around--taking 
on depression, underemployment and his own poor physical health to 
become a Pittsburgh success story. He will speak at a press conference 
later this morning about his personal achievements. Just as Marty 
continues to challenge himself to lead a healthier lifestyle, we as a 
community are prepared to do the same thing.
    Again, I thank you for your commitment to this issue and for the 
opportunity to speak here this morning.

            Risk Factor Trends in Pennsylvania 1990-2002 \1\

    Since 1990, the prevalence of adult obesity (adults with a Body 
Mass Index of 30 or greater) in Pennsylvania has nearly doubled from 
12.5 percent to 24 percent.
---------------------------------------------------------------------------
    \1\ National Center for Chronic Disease Prevention & Health 
Promotion, Behavioral Risk Factor Surveillance System, 2002. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Since 1990, the prevalence of overweight adults in Pennsylvania has 
increased from 33.8 percent to 35.6 percent.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Since 1990, the percentage of adults who report an average 
consumption of less than 5 servings of fruit and vegetables per day has 
steadily remained around 75 percent.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Pennsylvania has the 11th highest rate of obesity in the United 
States. The following table shows the obesity rates for the 20 states 
that have the highest obesity rates in the country.

  STATES WITH THE HIGHEST OBESITY PREVALENCE IN THE UNITED STATES, 2001
------------------------------------------------------------------------
                                 State                      Obesity rate
------------------------------------------------------------------------
    West Virginia                                                 27.5
    Mississippi                                                   26.8
    South Carolina                                                25.8
    Alabama                                                       25.7
    Louisiana                                                     25.5
    Texas                                                         25.5
    Michigan                                                      25.4
    Tennessee                                                     24.6
    Kentucky                                                      24.5
    Indiana                                                       24.1
    PENNSYLVANIA                                                  24.0
    Arkansas                                                      23.7
    North Carolina                                                23.5
    Georgia                                                       23.5
    Missouri                                                      23.2
    Ohio                                                          23.0
    Oklahoma                                                      22.9
    Iowa                                                          22.9
    Kansas                                                        22.8
    Wisconsin                                                     21.6
------------------------------------------------------------------------


    Senator Specter. Well, thank you, Mr. Mann.
    You have a very good partnership lineup with the University 
of Pittsburgh Medical Center, UPMC, and also the Blue Cross 
Highmark. Can you give the subcommittee an idea, specifically, 
of what kind of programs you will carry out? Give me an example 
as to what you will do?
    Mr. Mann. One of the programs that we are currently 
running, I spoke out, our after-school program, we, in 
collaboration with Highmark Blue Cross Blue Shield, we run a 
program called SPRK, and it's Sports Play Recreation for Kids. 
This curriculum is designed to get children active again. And 
so Highmark----
    Senator Specter. Get the children active on sports.
    Mr. Mann. Any activity. Sports is just one of them. A lot 
of them have nothing to do with----
    Senator Specter. Exercise.
    Mr. Mann. Exercise.
    Senator Specter. How about information on diet and----
    Mr. Mann. Diet and nutrition is a very large part of it. 
The Center for Minority Health is a very prominent research arm 
at University of Pittsburgh. They are providing the stats and 
the research, and will be doing an evaluation on what we do, in 
terms of our programming.
    Senator Specter. Mr. Delpesce, what are you going to do to 
counteract the culture of deep-fried food?
    Mr. Delpesce. I may have to call on Senator Harkin on that 
one to help me. I'm not sure. But some of the things that we're 
going to work on are community design efforts. And, as was 
stated, we're--with the people we have the table, we do think 
we can impact some, in terms of the sidewalks--Principal 
Financial Group actually has committed $10 million to a 
riverwalk in downtown Des Moines that isn't going to focus on 
retail along the river----
    Senator Specter. How about the deep-fried food?
    Mr. Delpesce. What's that?
    Senator Specter. What are you going to do about that? Are 
you going to tell people not to eat it?
    Mr. Delpesce. Absolutely.
    Senator Specter. Good.
    Mr. Delpesce. We are going to put a lot of effort forth in 
teaching better nutrition, absolutely. And we're going to work 
with the Department of Education to work on the physical 
education issue in the schools. And then we're also--one of the 
areas that we're very interested in is in the low-income and 
minority communities there, where the prevalence of this is 
just unbelievable. And so we're going to do what we can to----
    Senator Specter. Dr. Gladish, could you devise a program 
which would be directed to Philadelphia cheesesteaks?
    Governor Rendell spoke at the NAACP meeting on Sunday night 
and touted the Philadelphia cheesesteaks, which he said are 
unique because they use bad meat and no cheese; they use Cheese 
Whiz, which melts better, and they are used so that--
customarily, where you drain off the fat; for a Philadelphia 
cheesesteak, you drain in the fat--and there is a calculation 
on the stringiest meat that can be found.
    All of which adds to an extraordinary good taste. Now, as 
the head of a national program, what is your answer to combat 
the Philadelphia----
    Dr. Gladish. Senator, if the----
    Senator Specter [continuing]. Cheesesteak?
    Dr. Gladish [continuing]. The Philadelphia cheesesteak will 
help grow hair, I'll eat as many as you'd like me to.
    I'll tell you what, this is a really key concern, because 
nutrition and activity have to go together, and they really 
have to operate at the individual level. What we've discovered 
in our YMCA work is that there are apparently significant 
social, psychological and personal barriers to a very 
substantial percentage of our population--kids and adults, and 
adults as models for kids--around these fundamental issues. So 
our Activate America Project is also engaged with Stanford 
University, Harvard University, with the CDC, with HHS help, 
and others, I'm trying to examine a different kind of an 
approach, a model that will encourage and provide incentive and 
reward for persons to change their personal lifestyle. Because 
at the policy level, we can adopt a whole wide range of 
important, significant, and affirmative policies, incentives, 
and the rest, but unless we can find means at the community-
based level--in schools, in homes, in YMCAs, in Boys and Girls 
Clubs, and other settings--to encourage folk to change their 
behaviors and to provide a reasonable image of what that 
means----
    Senator Specter. Dr. Gladish, that's a fine----
    Dr. Gladish [continuing]. We're not going to succeed.
    Senator Specter [continuing]. That's a fine theoretical 
answer. Now, time is almost up, so I'm going to yield to 
Senator Harkin, but I'd like you to supply the subcommittee 
with a written answer to how you deal with the Philadelphia 
cheesesteak. There, you have a delicacy which people love to 
eat, and it's deleterious to their health. So give that some 
thought.
    Senator Harkin.
    Senator Harkin. My thought is to eat maybe one a year, or 
something like that, just cutting down on how much you eat of 
that stuff. And the Iowa State Fair is another example. I mean, 
I go every year, gonna go again this year, and it's just booth 
after booth of everything you shouldn't eat. And it sends the 
wrong signal to our kids, who go to the Iowa State Fair. We 
need to provide more fruits--fresh fruits, fruit drinks, 
healthy kinds of foods at places like that to send the proper 
example to our kids, as well as what we should be doing in our 
schools.
    Since Senator Specter got off on the Philadelphia 
cheesesteak, I mean, look, we know a lot of these foods are bad 
for us, but, again, sometimes in moderation, as long as you 
don't eat too much of it, and you don't eat it all the time--I 
mean, look, I like a Big Mac as much as anyone else, but I 
don't eat five of them a week. I mean, to me, this is a treat. 
A couple, three, or four times a year, I'll have a Big Mac, and 
it's a nice treat. You know, I'm not opposed to that. It's just 
the constant barrage that you get that this is good to eat all 
the time, and it's not. So we have to have better information 
on moderation in eating those kinds of foods, and make sure 
that these are not the kind of things that you consume all the 
time.
    I don't have any other questions. I just want to say, Dr. 
Gladish, thank you for your announcement today of the Activate 
America Program. The cities, the States--couple of States 
you're going to be doing in this. To me, the Y is providing the 
kind of dynamic, energetic, forward-looking leadership that we 
need to get to a broad community out there. And I don't know of 
any entity in the country that can do a better job of reaching 
that broad spectrum of people, everywhere from kids to adults, 
from all walks of life, than the YMCA. So, again, I thank you 
for that. I look forward to the press conference we're going to 
be having with you shortly. That's why I don't want to ask any 
questions, because we've got a couple of more witnesses we've 
got to get through. But thank you very much for what the Y is 
doing.
    Senator Specter. Thank you very much, gentlemen.
    We turn now to our third panel, Dr. Dean Ornish, Mr. Jack 
Rule, and Ms. Karen Silberman. Our first witness is Dr. Dean 
Ornish, founder, president, and director of the Preventative 
Medicine Research Institute in Sausalito, California, Clinical 
Professor of Medicine at the University of California in San 
Francisco, and founder of UCSF's Osher Center for Integrative 
Medicine; written extensively about how comprehensive lifestyle 
changes can reverse coronary heart disease; medical degree from 
Baylor; a master's degree from the University of Texas at 
Austin.

STATEMENT OF DEAN ORNISH, FOUNDER, PRESIDENT AND 
            DIRECTOR, PREVENTATIVE MEDICINE RESEARCH 
            INSTITUTE
    Senator Specter. Thank you very much for joining us, Dr. 
Ornish. And, at the outset, I will say for the record that I 
have participated in your CADRE program, which you have at 
Walter Reed, and the results which you have had on reversing 
coronary problems and now prostate cancer. They're milestone 
research achievements, so we thank you for what you have done, 
and we look forward to your testimony on the obesity issue. The 
floor is yours.
    Dr. Ornish. Thank you.
    Well, thank you, Senator Specter. I want to just publicly 
acknowledge your support, Bettilou Taylor and others in your 
office for your support, and Senator Harkin for your 
leadership, as well--this new legislation, I think, is among 
the most important that I've ever seen in my lifetime--and also 
for appointing me to the White House Commission on 
Complementary Alternative Medicine Policy.
    You know, we tend to think of advances in medicine as a new 
drug, a new laser, a new surgical technique, something really 
high-tech and expensive. And in our studies, my colleagues and 
I at the nonprofit Preventive Medicine Research Institute and 
the University of California-San Francisco, have been able to 
use very high-tech, state-of-the-art measures to prove how 
powerful these very low-tech and low-cost interventions can be.
    You know, chronic diseases, like heart disease, cancer, 
obesity, are, by far, the leading cause of death and disability 
in this country. And $1.8 trillion were spent on treating these 
diseases last year. As you mentioned earlier, as Secretary 
Thompson mentioned earlier, most of that is going for treatment 
rather than prevention.
    We've focused, for the last 27 years, on heart disease, 
because it's, by far, the leading cause of death and 
disability, and more money is spent on that than any other 
chronic disease. We were able to show that--at the time, it was 
thought that once you had heart disease, it could only get 
worse, but what we were able to show is that, rather than 
getting worse and worse, most people could actually get better 
and better, and much more quickly than people had once thought 
possible. And I think these findings are giving many people new 
hope and new choices that they didn't have before. We've found 
that--and I think bypass surgery is a good model, as well as a 
good metaphor, because more money is spent on that--$30 billion 
last year on bypass surgery, another $30 billion on 
angioplasty--and yet it's not been proven to prolong life, 
except in a very small segment of patients, and angioplasty has 
yet to be proven to prolong life or prevent heart attacks, and 
yet we spend large amounts of money. It's a great metaphor 
for--it's like mopping up the floor around a sink that's 
overflowing without also turning off the faucet. We're 
literally bypassing the problem without treating the cause. And 
I think what we've been able to show is that when you treat the 
cause, the need for drugs and surgery is greatly reduced, and 
the cost savings are corresponding to that.
    We were able to show, in randomized controlled trials, that 
heart disease is reversible. Ninety-nine percent of men and 
women who had heart disease were able to stop or reverse the 
progression of the disease, and we published that in the 
Journal of the American Medical Association and other major 
medical journals.
    Having seen what a powerful difference these changes in 
diet and lifestyle can make, I'm interested in finding ways to 
make them more available to the American public. We were able 
to show that these programs are not only medically effective; 
they're also cost effective. We worked with Highmark Blue Cross 
Blue Shield, with Mutual of Omaha, with other major insurance 
companies, and we have found that almost 80 percent of people 
who were told they needed a bypass or angioplasty were able to 
safely avoid it by changing diet and lifestyle. Mutual of Omaha 
calculated saving almost $30,000 a patient within a year. Other 
studies with Highmark Blue Cross Blue Shield have found that 
they were able to reduce their healthcare costs by 50 percent 
within 1 year in a matched control-group study.
    We've collected data now on more than 2,000 patients who 
have gone through our programs in various hospitals throughout 
the country. We've trained them through our nonprofit 
institute, and we have data now on more than 2,000 patients who 
have gone through them.
    We have been working with Medicare to do a demonstration 
project, and we've been able to show, across the country, 
across the board, the same kinds of changes in diet and 
lifestyle, the same medical benefits, and the same kind of cost 
benefits that we were able to show on our earlier studies.
    You know, I used to think that the primary determinative 
medical practice was science, which is why I'm a scientist and 
a professor of medicine at University of California, but I'm 
really becoming more aware that the primary determinant of 
medical practice is reimbursement. We doctors do what we get 
paid to do. We get trained to do what we get paid to do. If we 
change reimbursement, we change medical practice and medical 
education.
    We were working with different insurance companies--over 40 
who are covering our program in the sites that we've trained--
but the real Rosetta Stone, the tipping point, in all of this 
is Medicare. If Medicare covers programs like these on a 
generic, nonproprietary basis, then other insurance companies 
will follow their lead, and then they will be available. In 
contrast, in hospitals that we trained, even though they showed 
better clinical outcomes than have ever before been reported, 
many of those programs had to close down for a lack of 
reimbursement.

                           PREPARED STATEMENT

    So my plea to you today is to first thank you for your 
visionary leadership, Senator Specter and Senator Harkin, and 
also to say, I think the time is right to make programs like 
what we're doing--not limited to what we're doing, but any 
program that has the science to back up that diet and lifestyle 
can make a difference--available to people who most need them--
and the best way to do that is to have Medicare make this a 
covered benefit, because otherwise it will--always remains on 
the fringes of Medicare. But if Medicare covers this, it'll 
become part of the mainstream. And there's enough evidence 
now--from randomized trials, from demonstration projects--to 
show that this program is medically effective and cost 
effective. It's time to make a decision.
    Thank you.
    [The statement follows:]

                 Prepared Statement of Dr. Dean Ornish

    Mr. Chairman, distinguished colleagues, thank you very much for the 
privilege of being here today. My name is Dr. Dean Ornish, founder and 
president of the non-profit Preventive Medicine Research Institute and 
Clinical Professor of Medicine at the School of Medicine, University of 
California, San Francisco (UCSF). I appreciate the opportunity to 
appear before this Committee.
    Chronic diseases such as coronary heart disease, diabetes, cancer, 
and obesity are the leading causes of death and disability in the 
United States. Approximately $1.8 trillion were spent last year on 
health care in this country, and 75 percent of this amount was spent on 
treating Americans with chronic illnesses, including heart disease, 
cancer, obesity, and diabetes. However, less than 2 percent of this was 
spent on preventing these diseases. Clearly, more can be done. 
According to Secretary Tommy Thompson, who has been a visionary leader 
in promoting prevention and healthy lifestyles, ``If current policies 
and conditions hold true, by the year 2011 our nation will spend over 
$2.8 trillion annually on healthcare.''
    There is an epidemic of obesity facing America as well as in much 
of the industrialized world. Over 300,000 Americans each year die from 
illnesses caused or worsened by obesity, a toll that may soon overtake 
tobacco as the chief cause of preventable deaths. Approximately 65 
percent of adults and 15 percent of children are overweight or obese, 
and that number is increasing. The costs of obesity may exceed $100 
billion per year.
    Obesity is a major cause of the epidemic of diabetes. In 2000, 
approximately 17 million Americans had diabetes, costing approximately 
$132 billion. Complications of diabetes include heart disease and 
damage to the eyes, nerves, and kidneys. When people lose weight, they 
are often able to reverse the progression of diabetes and reduce or 
discontinue insulin and other medications.
    While there is a genetic component to chronic diseases, increasing 
scientific evidence documents that the primary determinants of these 
illnesses are the lifestyle choices that we make each day. Many people 
tend to think of breakthroughs in medicine as a new drug, laser, or 
high-tech surgical procedure. They often have a hard time believing 
that the simple choices that we make in our lifestyle--what we eat, how 
we respond to stress, whether or not we smoke cigarettes, how much 
exercise we get, and the quality of our relationships and social 
support--can be as powerful as drugs and surgery, but they often are.
    During the past 27 years, my colleagues and I at the non-profit 
Preventive Medicine Research Institute and the University of 
California, San Francisco School of Medicine have conducted a series of 
randomized controlled trials and demonstration projects showing that 
these changes in diet and lifestyle are both medically effective and 
cost effective. We used the latest in high-tech, state-of-the-art 
diagnostic technology to prove the power of these low-cost and low-tech 
interventions.
    We initially focused on coronary heart disease as an example of the 
power of diet and lifestyle changes because cardiovascular disease is 
the leading cause of premature death in men and women in this country. 
Since 1900, it has been the number-one killer in the United States 
every year but 1918. Heart disease claims more lives each year than the 
next five leading causes of death combined, including cancer. Coronary 
heart disease is the single largest killer of American males and 
females. Every 26 seconds an American will suffer a coronary event such 
as a heart attack, and every minute someone will die from one.
    In addition to its prevalence, heart disease is a model for 
understanding the benefits of preventing and addressing the underlying 
causes of a chronic disease rather than only literally and figuratively 
bypassing it. We don't have to wait for a new breakthrough in 
technology to prevent it. Knowing what we now understand, coronary 
heart disease could be prevented in the vast majority of Americans if 
they were willing to make sufficient changes in diet and lifestyle. For 
example, one study of 84,129 women in the Harvard Nurse's Health Study 
found that women who did not smoke, were not overweight, exercised 
moderately, and ate a healthful diet had 82 percent fewer coronary 
events than other women. Additional changes in diet and lifestyle could 
reduce this number even further.
    In 2001, more than one million coronary angioplasty procedures were 
performed at a cost of more than $30 billion, and more than 500,000 
coronary bypass operations were performed at a cost of another $30 
billion. 1,314,000 diagnostic cardiac catheterizations were performed 
in the United States at a cost of more than $23 billion.
    Despite these costs, bypass surgery prolongs life in less than 3 
percent of patients who receive it, and no randomized controlled trial 
has ever proven that angioplasty prolongs life or prevents heart 
attacks. Also, approximately one-third of angioplastied arteries 
restenose (clog up) again after only six months, and one-half of bypass 
grafts reocclude (clog up) within only a few years.
    This is somewhat akin to changing the oil filter in your car 
without also changing the oil, or mopping up the floor around an 
overflowing sink without also turning off the faucet. Dr. Denis Burkitt 
used to show a slide of people raising money to pay for ambulances and 
a hospital at the base of a cliff rather than for a fence at the top to 
keep cars from falling off.
    In addition to these costs, more than $20 billion were spent last 
year in the United States on cholesterol-lowering drugs, including 
statins. This number is likely to increase substantially given a report 
this week that encouraged more aggressive treatment of elevated 
cholesterol levels using these drugs. While cholesterol-lowering drugs 
have clear therapeutic benefits, patients should also be offered more 
intensive diet and lifestyle interventions that have been proven to 
lower LDL-cholesterol by approximately the same amount at a fraction of 
the costs and with similar therapeutic benefits.
    The major clinical benefit of bypass surgery and angioplasty is to 
reduce angina (chest pain), and this can be accomplished in most 
patients by changing diet and lifestyle. Instead of a ``quick fix'' 
that often recurs, diet and lifestyle may cause continued improvement 
in coronary heart disease.
    Your body often has a remarkable capacity to begin healing itself 
if you give it a chance to do so by addressing the underlying causes of 
chronic diseases. In our research, we documented, for the first time, 
that the progression of coronary heart disease can be reversed in most 
patients simply by making comprehensive lifestyle changes. These 
include a low-fat, whole foods diet, moderate exercise, stress 
management techniques, and support groups.
    In our randomized controlled trials, published in the Journal of 
the American Medical Association and other major journals, we found 
that 99 percent of people with severe coronary heart disease were able 
to stop or reverse it by making comprehensive lifestyle changes, 
without drugs or surgery. There was some reversal of coronary 
atherosclerosis after one year and even more improvement after five 
years, and there were 2.5 times fewer cardiac events.
    Most of the patients with severe angina (chest pain) because pain-
free within only a few weeks, and quality of life improved 
dramatically. Also, we found a 40 percent reduction in LDL-cholesterol 
after one year without cholesterol-lowering drugs, comparable to what 
can be achieved with drugs but without the costs or side-effects. They 
lost an average of 25 pounds in the first year and kept off half that 
weight for at least five years. In contrast, the diet recommended by 
the National Cholesterol Education Program and American Heart 
Association lowers cholesterol by only 3-5 percent and is not 
sufficient to stop the progression of coronary heart disease in most 
patients.
    Other studies of our comprehensive lifestyle program have 
replicated these findings, including demonstration projects in 
hospitals throughout the country. In a demonstration project involving 
eight hospitals, Mutual of Omaha found that almost 80 percent of people 
who were eligible for bypass surgery or angioplasty were able to safely 
avoid it for at least three years by making comprehensive lifestyle 
changes instead. Extrapolating these findings nationwide would have 
saved approximately $50 billion.
    At Highmark Blue Cross Blue Shield of Pennsylvania, Dr. Don 
Fetterolf (Vice President and Senior Medical Officer) and his 
colleagues found that medical claims utilization was reduced by 50 
percent in only one year in patients who went through our program of 
comprehensive lifestyle changes when compared to a matched control 
group of patients who did not.
    We now have collected data on more than 2,000 patients who have 
gone through our program in hospitals throughout the United States who 
have shown similar improvements. 389 of these patients are at least 65 
years of age. The Centers for Medicare and Medicaid Services is now in 
the process of conducting a demonstration project of this lifestyle 
program in the Medicare population.
    Increasing evidence links diet and lifestyle changes with reducing 
the risk of the most common cancers, including breast cancer, prostate 
cancer, colon cancer, and lymphoma. We recently completed the first 
randomized controlled trial demonstrating that the progression of early 
prostate cancer may be modified by making similar changes in diet and 
lifestyle. What is true for prostate cancer is likely to be true for 
breast cancer as well.
    In addition to preventing and reversing disease and lowering health 
care costs, comprehensive lifestyle changes often cause significant 
improvements in quality of life. We have found joy of living to be a 
much more powerful motivator for people to make and maintain changes in 
diet and lifestyle than fear of dying.
    In general, my colleagues and I have found two basic approaches are 
effective. The first is to make small, incremental changes such as 
walking 2,000 steps more per day and to consume 100 calories less per 
day. Over time, these small changes add up and make a meaningful 
difference. This is the approach popularized by Dr. James Hill in his 
program, ``America on the Move.''
    A second approach is to motivate people to make more intensive 
changes in diet and lifestyle. Paradoxically, some people find it 
easier to make big changes than small ones because when they make 
comprehensive changes in diet and lifestyle, they often feel so much 
better, so quickly, that it reframes the reason for making these 
changes from fear of dying to joy of living.
    Alterations in diet, for example, may affect blood flow within 
hours, for better and for worse. After a whole foods, low-fat meal, 
blood flow to the brain may improve, so people often describe feeling 
more alert and aware. Blood flow to the heart often improves; in our 
studies, most patients reported dramatic reductions in the frequency of 
angina within a few weeks. Erectile dysfunction may improve as blood 
flow increases to sexual organs. Most patients are able to lose weight 
and keep it off.
    One of the most effective anti-smoking campaigns was organized by 
the California Department of Health Services. Billboards featured a 
``Marlboro Man'' character with a limp cigarette hanging out of his 
mouth with the headline, ``Smoking causes impotence.'' For many men, 
this is more motivating than ``smoking causes heart attacks and 
emphysema,'' which are too frightening to contemplate.
    Many patients say that there is no point in giving up something 
that they enjoy unless they get something back that's even better--not 
years later, but weeks later. Then, the choices become clearer and, for 
many patients, worth making. They often experience that something 
beneficial and meaningful is quickly happening.
    The benefit of feeling better quickly is a powerful motivator and 
reframes therapeutic goals from prevention or risk factor modification 
to improvement in the quality of life. Concepts such as ``risk factor 
modification'' and ``prevention'' are often considered boring and they 
may not initiate or sustain the levels of motivation needed to make and 
main comprehensive lifestyle changes.
    In our experience, it is not enough to focus only on patient 
behaviors such as diet and exercise; we often need to work at a deeper 
level. Depression, loneliness, and lack of social support are also 
epidemic in our culture. These affect not only quality of life but also 
survival. Several studies has shown that people who are lonely, 
depressed, and isolated are many times more likely to get sick and die 
prematurely than those who are not. In part, this is mediated by the 
fact that they are more likely to engage in self-destructive behaviors 
when they feel this way, but also via mechanisms that are not well-
understood. For example, many people smoke or overeat when they are 
stressed, lonely, or depressed.
    I have been consulting with some of the large food companies such 
as PepsiCo, ConAgra, and McDonald's during the past few years, and I 
have been encouraged by what they are doing. Their concerns about 
litigation and legislation combined with the awareness of a growing 
market for healthier foods have created new opportunities. When 
companies like these use their considerable advertising and marketing 
resources to educate people about the benefits of healthy lifestyles 
and to provide more healthful products that are fun, convenient and 
tasty, then the health of our country is likely to improve. Also, 
worksite health promotion programs have shown considerable cost savings 
and improvements in productivity.
    Given the enormous cost savings, dramatic improvements in quality 
of life, and objective medical outcomes that result from changes in 
diet and lifestyle, why is there so much more emphasis on treatment 
than on prevention?
    The primary determinant of medical practice and medical education 
is reimbursement. The primary determinant of reimbursement is Medicare, 
since almost all insurance companies follow Medicare's lead in deciding 
what to cover. We doctors do what we get paid to do and we get trained 
to do what we get paid to do.
    Therefore, if Medicare would begin to reimburse diet and lifestyle 
programs on a certified but non-proprietary basis, this would put much 
more emphasis on prevention of chronic diseases and would motivate 
physicians and other health professionals to use diet and lifestyle 
interventions as treatments for coronary heart disease, obesity, 
diabetes, hypertension, hypercholesterolemia, and other chronic 
diseases. Of all legislation that Congress could enact, this would have 
the most impact in changing the emphasis of medical practice from 
treatment to prevention. Reimbursement for preventive services is an 
important part of Senator Harkin's HeLP America Act. An ounce of 
prevention really is worth a pound of cure.

STATEMENT OF JACK RULE, CEO, INCENTAHEALTH
    Senator Specter. Thank you very much, Dr. Ornish.
    We now turn to Mr. Jack Rule, the CEO of incentaHEALTH, an 
employer-based weight-loss company in Denver, Colorado; a 
native of Iowa. Mr. Rule played professional golf and received 
his bachelor's degree in business administration from the 
University of Iowa.
    Thank you for joining us, Mr. Rule, and we look forward to 
your testimony.
    Mr. Rule. Thank you, Mr. Chairman and Senator Harkin. I 
want to thank you for allowing me to testify in front of your 
distinguished subcommittee. I appreciate the chance to address 
the obesity crisis and its related health issues.
    As this subcommittee well knows, our country is facing a 
largely preventable health crisis. Studies indicate that, in 
2002 alone, obesity was directly responsible for $117 billion 
in healthcare costs. The obesity epidemic is associated with 39 
million lost work days and 63 million additional medical visits 
each year. Simply stated, Americans are eating too much, and 
exercising too little. Clearly, any system that has a realistic 
chance of positively influencing these startling statistics 
warrants consideration by our government and the private 
sector.
    In our view, to reach the largest number of people in the 
shortest period of time, the most logical place to attack the 
obesity crisis is in the workplace. Sixty-five percent of 
America is overweight or obese. As a result, a typical employer 
is paying inflated healthcare costs for almost two-thirds of 
its workforce. Employers obviously have a significant economic 
incentive to help their employees lose weight, but they need a 
weight-loss system that is realistic and cost-efficient.
    We believe such a system should do several things. First, 
it should be scalable. The program needs to address large 
numbers of employees at the same time. Next, it must be cost-
effective for both the employer and the employees. Ideally, it 
should provide financial incentives to both. Third, it should 
be practical and safe. There are no silver bullets in the 
weight-loss war. The effective program must be based on 
nutritional and exercise facts, not fads. Fourth, it must be 
easy to use, require minimum effort for the employer to 
administer, and, most importantly, be effective. Finally, it 
should be measurable for the individual and the sponsoring 
organization. The individual participant must be able to see 
personal progress while maintaining personal privacy. The 
employer must be able to gauge overall program performance and 
measure their return on investment.
    At incentaHEALTH, we have developed a system that meets all 
of these criteria. Our program is designed to lower a person's 
weight while reducing the organization's healthcare costs. The 
incentaHEALTH solution uses proprietary automated technology, 
realistic and tailored exercise and nutritional advice, and a 
unique incentive program to help participants modify their 
lifestyle and lose weight.
    The program rewards participants with cash incentives if 
body weight is lowered, and then maintained at the reduced 
levels. The funds for the incentive are made available from a 
portion of the employer's healthcare cost-savings generated 
from reduced absenteeism, fewer medical visits, and lower 
pharmacy costs.
    The mechanics of the program are simple, but effective. 
Participants use an exclusive and private automated weigh 
station to track weight-loss progress. Todd Maguire, the chief 
technical officer of incentaHEALTH, and designer of our 
technology, is standing by our HEALTHspot weight station. Todd 
will be available after the hearing, should anybody be 
interested in a demonstration.
    The HEALTHspot station identifies, weighs, and takes the 
picture of the participant. The encrypted data is then 
transmitted to our secure server. The process is HIPAA 
compliant, takes less than a minute, and requires no monitoring 
or assistance from the sponsoring employer. The incentaHEALTH 
system provides daily e-mail coaching tailored to each 
participant. As each person enrolls, they select a unique 
exercise program based on their personal fitness condition and 
their desired workout location. The chosen exercise program is 
outlined via daily e-mails, which include information on 
nutrition, meal ideas, exercise techniques, and motivational 
success stories. IncentaHEALTH offers e-mail and telephone 
support throughout the entire process. The individual, in 
addition to losing weight and improving their health, receives 
a small cash payment.
    For the sponsoring organization, the financial incentive is 
reduced overall healthcare costs, less absenteeism, increased 
productivity, and healthier employees. The incentaHEALTH 
program is designed to pay for itself. Our business model 
indicates that for every $1 of program cost, the employer will 
receive approximately $2 in first-year healthcare cost savings.

                           PREPARED STATEMENT

    We believe this is a commonsense way to address the serious 
healthcare issues. Mr. Chairman and Senator Harkin, we 
appreciate your giving us the time to show you one approach 
designed to address the critical obesity problem.
    [The statement follows:]

                    Prepared Statement of Jack Rule

    Mr. Chairman, I am Jack Rule, Chief Executive Officer of 
incentaHEALTH, a high technology, employer-based, weight loss company.
    Thank you for allowing me to testify in front of your distinguished 
Subcommittee. I appreciate the chance to address the obesity crisis and 
its related health issues.
    As this Subcommittee well knows, our country is facing a largely 
preventable health crisis. Studies indicate that in 2002 alone, obesity 
directly contributed to $117 billion in health care costs. Obese and 
overweight employees claim up to $1,500 more in health care costs each 
year and incur 77 percent higher prescription drug costs than those 
with a healthy body weight. The obesity epidemic is associated with 39 
million lost workdays and 63 million additional medical visits each 
year.
    Clearly, any system that has a realistic chance of positively 
influencing these startling statistics warrants consideration by our 
government and the commercial sector. In our view, both the health and 
human costs associated with the obesity epidemic demand it.
    At incentaHEALTH, we believe the most logical place to attack the 
obesity crisis is in the workplace. Sixty-five percent of America is 
overweight or obese. As a result, a typical employer is paying inflated 
health care costs for almost two-thirds of their workforce--employers 
have a significant economic incentive to help their employees lose 
weight but they need a weight loss system that is realistic and cost 
efficient.
    We believe such a system should do several things:
    First, it should be scalable. The program needs to address large 
numbers of employees at the same time.
    Next, it must be cost effective for both employers and employees. 
It should be a winning proposition for the individual and the employer. 
Ideally, it should provide financial incentives for both.
    Third, it should be practical, safe, and, most importantly, 
effective. There are no ``silver bullets'' in the weight loss war. An 
effective program must be based on nutritional and exercise facts--not 
fads.
    Fourth, it must be easy to use and follow. That suggests that it be 
workplace based, offer both exercise and nutritional alternatives, and 
require minimum effort to administer.
    Finally, it should be measurable--for the individual and the 
sponsoring organization. The individual participant must be able to see 
personal progress while maintaining personal privacy. The sponsor must 
be able to gauge overall program results and measure a return on their 
investment.
    At incentaHEALTH we believe we have developed a system that meets 
all of these criteria. An innovative health care technology company, 
incentaHEALTH's weight loss program is designed to lower a person's 
weight while reducing an organization's health care costs. The 
incentaHEALTH solution uses proprietary automated technology, realistic 
and tailored exercise and nutritional advice, and a unique incentive 
program to help participants modify their lifestyle and lose weight. 
The program rewards participants with cash incentives if body weight is 
lowered and then maintained at the reduced levels. The funds for the 
incentive are made available from a portion of the employer's health 
care cost savings generated from reduced lost time, medical visits, and 
pharmacy costs.
    The mechanics of the program are simple but effective.
    First, participants use an exclusive, and private, automated weigh 
station to track weight loss progress. Our automated station, called 
HEALTHspot, is linked to an advanced reporting system that provides 
measurable, but individually private, results of overall participant 
progress. To ensure integrity and privacy in the system, an enrolled 
participant simply enters his or her telephone number or individual pin 
into the keyboard, scans his or her fingerprint into the system, and 
when prompted, stands on the digital medical quality scale. The 
participant's photograph is digitally taken as the scale records the 
weight and the data is encrypted and transmitted to the secure 
incentaHEALTH server. The system prohibits unauthorized access and the 
information handling practices meet the HIPAA requirements for 
treatment of personal health information. By the time the participant 
returns to his or her personal computer, the information weight, 
picture, and progress is available for individual review on-line 
through our website. Additionally, the technology can also calculate an 
individual's body fat percentage. The whole process takes, on average, 
less than a minute and requires no monitoring or assistance by the 
sponsoring agency.
    Next, in addition to individual and composite group weight 
measurements, the system provides daily email ``coaching'' tailored to 
each participant. The emailed material offers nutritional education, 
detailed instruction on exercise techniques, and meal ideas as well as 
motivational success stories of successful participants. As each person 
enrolls, they select a unique exercise program based on their personal 
fitness condition--Foundation, Intermediate, or Advanced. They also 
select whether they will workout in a fitness center or at home. Our 
workout advice offers an assortment of suggested exercises. Strength 
training suggestions target each muscle group and offers detailed video 
alternatives for both typical gym strength training machines and 
readily available resistance bands for use at home or on the road. 
Aerobic advice includes options for both interval and endurance 
training.
    Based on the selections made, a specific exercise program is 
outlined via the daily emails for each twelve-week period. The program 
is one year in duration. Additionally, the emails offer nutrition 
education, detailed instruction on exercise techniques, and meal ideas 
as well as motivational success stories. If a participant has questions 
or is having difficulty reaching targeted weight goals they may contact 
incentaHEALTH by email or telephone for assistance or guidance.
    Human nature being what it is, we believe an effective incentive 
program is a vital component to our program--for both the individual 
and the corporation or agency.
    For the individual, the incentive, in addition to reduced weight 
and improved health, is a cash payment. While participants may weigh in 
as often as they like, ``official'' weigh-ins are conducted on a 
quarterly basis. Based on the results of the quarterly weigh-in the 
employee may qualify for a small incentive check as a reward for their 
progress. If the weight loss is maintained for the next quarter the 
participant receives a second check. If weight loss continues, the 
participant receives a larger check. If weight is gained, the checks 
stop. While relatively small, the checks provide a positive 
reinforcement; they are ``attention getters.'' IncentaHEALTH monitors 
the progress, processes the payments, and distributes the incentives to 
the participants; the sponsoring organization in turn reimburses 
incentaHEALTH.
    For the sponsoring organization, the incentive is reduced overall 
health care costs, less absenteeism, increased productivity, and 
healthier employees. Put simply, employers are paying a high premium 
for the health care costs associated with overweight and obese 
employees. For example, in one study, overweight employees cost 
employers an additional $1,500 in yearly health care costs. In another 
study, obese employees were found to be twice as likely as lean 
employees to take seven or more illness related absences in a six-month 
period. Another study indicates that a positive weight reduction can 
reduce prescription drug costs by 77 percent.
    Our program is designed to pay for itself. The typical 
incentaHEALTH program has three cost elements: a fixed $3,000 fee for 
the annual lease of equipment, a $9 fee per month per participant, and, 
on average, a $3 fee per month per participant for the incentive 
payments. In return for this relatively modest investment, the 
employers can achieve significant savings. In a population of 1,000 
persons, on average 65 percent are overweight or obese. Of those 650, 
we assume that at least 50 percent or 325 will voluntarily sign up for 
the program and of those who participate, 50 percent or 160 
participants, will lose and keep off at least 10 percent of their 
weight. We project that anyone who loses 10 percent of their body 
weight will save $500 a year in medical costs. Therefore, 160 
successful participants would equal $80,000 in annual savings for a 
program cost of $45,000.
    In fact, in our initial pilot effort with Kaiser Permanente our 
assumptions have proven to be quite conservative. We exceeded our 
enrollment expectations by 60 percent and our weigh-ins by 52 percent. 
In our first quarter alone, of two hundred and twenty-six individuals 
who weighed in, one hundred and seventy four individuals lost weight--
77 percent of participants. In total, 1,164 pounds have already been 
lost and body mass indexes have shown significant improvement. Fifteen 
participants are now classified in the healthy weight category rather 
than overweight and another ten individuals are no longer clinically 
obese.
    In summary, the program is designed to produce measured, healthy, 
and steady weight loss over a prolonged period. It is not another ``yo-
yo'' weight loss gimmick. A yearlong process, the goal is the 
establishment of a healthy and maintainable life style that improves 
the health and overall fitness of the participant and saves the 
employer crucial health care dollars. I believe that the unique system 
developed by incentaHEALTH provides both employers and employees a 
common sense way of addressing serious health care issues in a cost 
effective and realistic way.
    Mr. Chairman, thank you for providing me an opportunity to share my 
views and show you one approach designed to address the critical 
obesity issue. I am happy to answer any questions the Subcommittee may 
have.

STATEMENT OF KAREN SILBERMAN, EXECUTIVE DIRECTOR, 
            NATIONAL COALITION FOR PROMOTING PHYSICAL 
            ACTIVITY
    Senator Specter. Thank you very much, Mr. Rule.
    We turn now to Ms. Karen Silberman, Executive Director of 
the Coalition to Promote Physical Activity. Prior to her 
current position, she was conference director in the Points of 
Light Foundation; bachelor's degree from Oberlin, and MBA in 
nonprofit management from Indiana University.
    Thank you for joining us, Ms. Silberman, and we look 
forward to your testimony.
    Ms. Silberman. Thank you.
    The National Coalition for Promoting Physical Activity 
(NCPPA) is a coalition of major health, fitness, and recreation 
associations working to advance policies and programs that 
encourage physical activity. NCPPA was created in response to 
the 1996 Surgeon General Report on Physical Activity and 
Health. The American College of Sports Medicine, the American 
Heart Association, and the American Alliance for Health, 
Physical Education, Recreation, and Dance convened the 
coalition as a way to advocate and educate Americans on the 
importance of regular physical activity.
    NCPPA has since grown to include a broad cross-section of 
national and local organizations, including Federal agencies, 
corporate partners, trade and professional associations, and 
national charitable organizations. Our members are as diverse 
as the American Cancer Society, the National Recreation and 
Park Association, AARP, the YMCA, Nike, and the NCAA.
    NCPPA's members independently address a host of issues 
pertaining to physical activity, including health science, 
education, environment, population-specific outreach and 
activity behavior. By working together and building on existing 
relationships in the public/private industry sectors, NCPPA is 
developing new alliances and partnerships to coordinate and 
focus public education campaigns, policy development, and media 
education.
    Our work is motivated, in part, by the alarming rates of 
obesity, chronic disease, and inactivity in our country. 
America faces a national health crisis of epidemic proportions. 
Physical inactivity combined with overweight has, in less than 
30 years, made the United States a Nation of overweight and 
out-of-shape individuals. According to the CDC, the incidence 
of overweight or obesity among adults increased steadily from 
47 percent, in 1976, to 61 percent, in 1999. And despite proven 
benefits of regular physical activity, more than 60 percent of 
Americans do not get enough physical activity to provide health 
benefits.
    Every year, four major killers strike 1.5 million 
Americans--heart disease, stroke, diabetes, and cancer--
diseases that could be prevented, in part, by regular physical 
activity. Researchers estimate that 34 percent of heart-disease 
deaths are attributable to physical inactivity. The estimated 
direct and indirect costs of these four diseases in 2002 
amounted to $465 billion. Physical inactivity and obesity now 
rank second, after tobacco use, as the leading cause of death 
in the United States, and the newest figures estimate that 
400,000 deaths annually are attributable to poor diet and 
inactivity.
    The epidemic of obesity spares no population, including 
children. A report by the National Center for Health Statistics 
stated that, in 2002, approximately 15 percent of all children 
and adolescents were overweight, three times as many overweight 
children and adolescents as reported in 1980, which translates 
into over 9 million children. And nearly three out of every 
four overweight teenagers will become overweight adults. And 
overweight children are more prone to both kinds of diabetes, 
cardiovascular disease, and asthma.
    Moderately intense daily physical activity has long been 
recognized as an essential ingredient to a healthy life, but, 
increasingly, physical activity has been engineered out of 
Americans' daily lives. An anecdote to rising rates of disease 
and medical costs clearly necessitates increasing rates of 
physical activity. Regular physical activity is associated with 
numerous health benefits, including reduced risk of developing 
heart disease, stroke, diabetes, certain types of cancer, and 
obesity, a reduced risk of osteoporosis in women, improved 
psychological well-being, especially for persons suffering from 
anxiety and depression, and reduced risks of unhealthy 
behaviors--for instance, substance abuse and violence--among 
children and adolescents. And a study in California echos what 
we already know, anecdotally, that children who increase their 
daily physical activity from 3 to 5 days a week have a 20 
percent increase in overall fitness, a 20 percent improvement 
in school attendance, and a 20 percent improvement in school 
grades. Physical activity is simply the most effective and 
inexpensive form of prevention we have available. It is the 
closest thing to a magic bullet that we have.
    NCPPA does not believe that we can legislate individual 
behavior change, but we do believe that we can make our 
physical environment more conducive to being physically active. 
We need legislation that encourages physical activity as part 
of a healthy life, that incentivizes it when necessary, and 
makes it an attractive option for all Americans.
    The challenge in America, a country in which 25 percent of 
the population reports no leisure-time physical activity, is to 
develop effective physical-activity policies. NCPPA believes 
that we need daily physical education in schools, and suitable 
equipment and facilities to carry out these activities. 
Physical education helps students develop the knowledge, 
skills, behavior, attitudes, and confidence needed to be active 
for life, while providing an opportunity for students to be 
active during the school day. We need policies that ensure that 
walking, bicycling, and other forms of physical activity are 
safe and accessible, especially for children to and from 
school. We need non-motorized forms of transportation included 
in transportation policy. We need workplace and labor policies 
that encourage physical activity. We need policies that help 
change social norms to facilitate the understanding that 
physical activity is an important part of daily life. And, 
finally, we need policies that encourage development and access 
to physical-activity facilities.

                           PREPARED STATEMENT

    NCPPA is glad to be taking a lead on the way we address 
physical inactivity and related chronic diseases, and we 
believe there is broad public support for measures that promote 
prevention activities, legislation that increases physical-
activity opportunities, and policies that support and encourage 
physical activity among children.
    We will continue to advocate and educate on these issues, 
and we look forward to working with this Subcommittee.
    Thank you.
    [The statement follows:]

                 Prepared Statement of Karen Silberman

    Karen Silberman joined the National Coalition for Promoting 
Physical Activity (NCPPA) in January 2002. NCPPA is a coalition of 
major health, fitness and recreation associations working to advance 
policies and programs that promote physical activity. NCPPA's mission 
is to unite the strengths of public, private, and industry efforts into 
collaborative partnerships that inspire and empower all Americans to 
lead more physically active lifestyles.
    NCPPA's goal is to increase the adoption of physically active 
lifestyles by educating policymakers and interested individuals about 
the benefits of physical activity and influencing policy to build 
sustainable, physically active environments. In addition, NCPPA works 
to foster the efforts of individuals and organizations dedicated to 
creating healthier communities through physical activity participation 
in the schools, at the worksite and in communities
    Prior to her position at NCPPA, Karen worked for Association 
Management Group (AMG), an association management company that manages 
trade and professional organizations. During her four-year tenure at 
AMG Karen served several clients included, Consulting Engineers 
Council, Smart Card Forum, Association of Legal Administrators and the 
American Association of Naturopathic Physicians.
    Prior to AMG, Karen was the Conference Director at the Points of 
Light Foundation, an organization that promotes and encourages 
volunteer service. Additionally, Karen spent two years at the American 
Heart Association managing fundraising events in the state of Maryland.
    Karen received her BA in Sociology from Oberlin College and her MPA 
in Nonprofit Management from Indiana University.

    Senator Specter. Thank you, Ms. Silverman.
    Dr. Ornish, when you talk about reducing medical costs 
through the kinds of programs that you have, on reversal of 
plaque in the arteries, on the prostate cancer, you strike a 
real chord with--a major problem facing America today, as you 
know, is the increasing cost of healthcare.
    Dr. Ornish. Yes.
    Senator Specter. To what extent can you document your own 
programs to be cost effective or actually save Medicare 
dollars?
    Dr. Ornish. Well, we've already documented that over the 
last 27 years. First, we demonstrated that these lifestyle 
changes are medically effective. We used angiograms, PET scans, 
radionuclide ventriculograms, cardiac events, a 91-percent 
reduction in the amount of chest pain, and two-and-a-half times 
fewer cardiac events, including heart attacks and bypasses and 
angioplasties, simply by changing diet and lifestyle. The 
evidence is really overwhelming.
    But we then showed that this is not--and, by the way, just 
parenthetically, it's--to me, the whole metaphor is, Are we 
going to bypass blocked arteries, are we going to have gastric 
bypass? I mean, these are all really not addressing the cause. 
But when you treat the cause, it's both more medically 
effective and more cost effective.
    We've been able to show that. First, Mutual of Omaha did a 
demonstration project in eight hospitals around the country--
that included Harvard and Beth-Israel in New York, and UCSF, 
and Scripps, but also in Omaha, Des Moines, South Carolina, and 
in Broward General Hospital in Fort Lauderdale--and we found 
that we could motivate people to make bigger changes in diet 
and lifestyle than have ever before been reported, and to get 
better outcomes than have ever before been reported, not only 
medical outcomes, but also cost outcomes. Mutual of Omaha found 
they saved almost $30,000 immediately because most of those 
patients who were told they needed a bypass or angioplasty were 
able to safely avoid it for at least 3 years.
    In addition, Highmark Blue Cross Blue Shield of 
Pennsylvania, in your home State, found that they could reduce 
their healthcare costs by 50 percent in both heart patients and 
in non-heart-patients.
    I want to emphasize again, we focused on heart disease 
because it's the most common cause of death in men and women, 
and the most expensive use of healthcare dollars. But diabetes, 
hypertension--people lost weight, and they kept it off, they 
felt better, their depression improved--in every way we can 
measure, when you change diet and lifestyle, it affects chronic 
diseases across the board. And we're about to publish the first 
study showing that the progression of prostate cancer may be 
influenced for the better by changing diet and lifestyle. If 
it's true for prostrate cancer, it'll almost certainly be true 
for breast cancer. And I also want to add my sympathy to Ms. 
Lackman.
    So what's frustrating to me is that we have so much 
evidence showing that this is both medically effective and cost 
effective, and yet it's so hard to get agencies like Medicare 
to say, ``You know, this is exactly the kind of program that we 
need--this one and ones like it--to save money and to make the 
American people healthier in a way that's not going to involve 
cutting services, but, rather, empowering people with 
information.''
    Senator Specter. Would you provide the subcommittee with 
the written materials which show the cost savings?
    Dr. Ornish. They're in my----
    Senator Specter. Ms. Silberman, if you had your choice 
between golf and squash, what would your recommendation be?
    Ms. Silberman. It depends if you're going to drive the golf 
cart or if you're going to walk the 18 holes.
    Senator Specter. Well, Mr. Rule, I know you're a 
professional--were a professional golfer. How do you rate golf? 
My wife has become an addict at golf. But if you were making a 
recommendation to somebody starting out on an exercise program, 
how would you rate golf contrasted to tennis or squash or 
basketball or some of the aerobics which build up the pulse 
rate a little faster?
    Mr. Rule. Well, if you--Mr. Chairman, if you had a 
tolerance for frustration, I'd recommend golf. But if you're 
just looking for exercise, I think you can get a lot more 
exercise playing basketball or any of the sports that raise 
your heart rate.
    Senator Specter. Mr. Rule, we'd be interested if you would 
provide, in a written response, the amplification of the 
comment you made that your program is cost effective--saves 
money, doesn't cost money.
    Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman.
    I really appreciate this entire panel being here, and 
especially Mr. Rule for being here. Now, you went to Waterloo 
High School.
    Mr. Rule. Yes.
    Senator Harkin. You must have graduated in 1957?
    Mr. Rule. Yes.
    Senator Harkin. Is that the year that Dowling beat Waterloo 
for----
    Mr. Rule. I knew you were going to bring that up. Yes, it 
is. We lost, in the finals of the State basketball tournament, 
to Dowling.
    Senator Harkin. Well, Jack Rule, at that time, was the big 
threat about our winning--my high school winning the State 
championship that year, and we did prevail that year. We did 
win that year. But, gosh, I remember your--people have been 
talking about you being a golfer, but I always think of you as 
being a basketball player for Waterloo.
    Well, listen, I'm really delighted to see you again and to 
hear what you're doing, especially with this program. And I 
understand you're marketing this to businesses all over, right?
    Mr. Rule. Yes.
    Senator Harkin. How about a small business. Tell me, Jack, 
about someone that just employs 20 or 30 or 40 people. Could 
they afford to do this?
    Mr. Rule. Senator, I think that the breakpoint's probably 
at about 100 employees. Our model shows that if you have 100 
employees, you're going to have about 65 of those people that 
would be eligible, meaning they have a BMI of over 25, be 
eligible to earn a check.
    Senator Harkin. Yeah.
    Mr. Rule. And we figure that half of those people will 
actually participate. And so, the 12-month period. So when you 
get--when you have to pay for the technology which allows this 
to be HIPAA compliant and--it becomes uneconomic at the lower 
levels, breaking down the participants on that basis.
    Senator Harkin. Are there any Federal tax incentives for a 
business to do this kind of activity?
    Mr. Rule. Not to my knowledge, there are not. And, in fact, 
Senator, I'm glad you asked that question, because we could use 
some help.
    The tax law, basically, says that if a corporation pays for 
their employee to participate, not only does the employee have 
to pay taxes on what this benefit, is whatever is paid on their 
behalf----
    Senator Harkin. Yeah.
    Mr. Rule [continuing]. But also, the small incentive 
checks, they have to pay tax on that, as well----
    Senator Harkin. Yeah.
    Mr. Rule [continuing]. Which, in that case, I think there's 
less of an argument. But I think when you look at the--an 
employee having to pick up, as taxable income, the cost of the 
employer's efforts to have them lose weight, I think that's 
wrong.
    Senator Harkin. An employer does not get to deduct that it, 
either.
    Mr. Rule. That's correct.
    Senator Harkin. I have a bill in to do this. I don't know 
the number of it, but I'll get it to you to take a look at. 
It's just to provide--that if a company provides this type of 
health prevention and wellness programs, that it would be a 
deductible expense for the business, and not a taxable benefit 
to the employee.
    Mr. Rule. That's a tremendous----
    Senator Harkin. Well----
    Mr. Rule [continuing]. Effort.
    Senator Harkin. Yeah. And that would cut across all these 
businesses. Also, I'm just very concerned about how we help a 
lot of small businesses do this. They really can't afford to 
build a fitness center, for example. They could afford--and 
some could--to perhaps provide a benefit to join a health club, 
or something like that, that might be around. And in that 
regard, they need some tax benefits and some up-front 
incentives to do this in the workplace.
    So any other thoughts, Jack, you have on that, and how we 
get--provide, again, incentives--we provide tens of billions of 
dollars a year in tax incentives for this and that, and this 
and that. But we don't provide it for businesses to provide 
wellness programs for the workers.
    Mr. Rule. Senator, there is one idea I'd like to pass along 
in that regard. One of the problems--one of the appeals of our 
program is obviously that the employee gets paid to lose 
weight. But the HIPAA rules are too prohibitive as far as 
somebody taking their weight at a small company's location, 
where somebody is standing with a clipboard and taking their 
weight in order to have measurable----
    Senator Harkin. Yeah.
    Mr. Rule [continuing]. Performance. If there was a way to 
have the employer take the weight and provide it to us, then 
our program would work for the smaller companies, as well as 
the large company.
    Senator Harkin. Have you ever looked at Townsend 
Engineering, in Des Moines, Iowa, what they did?
    Mr. Rule. No.
    Senator Harkin. If you ever get back there, take a look at 
what they did with their wellness programs, and the incentives 
that they have provided to their workers--vacations, this and 
that, time off. It's been--and for families, for the whole 
family--it's been great. And both Ray and Ted Townsend will 
tell you that their productivity has just gone through the 
roof, and no one take sick time, no one ever leaves work. I 
mean, they--that's just been a great incentive program.
    Dr. Ornish, I know our time's running out again, I just 
want to thank you for all that you've done to make Americans 
aware of diet and eating right, nutrition. I've visited a 
couple of your sites that Mutual of Omaha did, one in New York, 
and----
    Dr. Ornish. The one in Des Moines?
    Senator Harkin [continuing]. And talked to people who had 
been involved in your program. And it is amazing how much 
better the feel, and that fact that they didn't have recurrence 
of any chest pain and angina and things like that. And that's 
been several years ago when I visited that.
    Dr. Ornish. Yes.
    Senator Harkin. So it's clear that this--that your approach 
works. But, again, it's the idea of how you get the incentives 
in there.
    Dr. Ornish. Exactly.
    Senator Harkin. Medicare pays for all this patching, 
fixing, and mending, but we don't get to this step, of 
preventative healthcare, and that we need to incentivize this 
somehow.
    Dr. Ornish. I completely agree with you, Senator. You know, 
I mentioned that heart disease kills more Americans each year 
than virtually everything else combined. But what I failed to 
say was that, knowing what we now know, 95 percent of that 
could be prevented.
    Senator Harkin. Yeah.
    Dr. Ornish. So it's a staggering contradiction. And yet, as 
you indicated, Medicare and insurance companies will pay for 
the bypass, they'll pay for the angioplasty. Most insurance 
companies will pay for cholesterol-lowering drugs, which cost 
$20 billion last year, and that number is only going to go up, 
especially this week, with the report saying that they're going 
to prescribe even more. And most of those expenses could also 
be avoided by simply changing diet and lifestyle.
    But, even more importantly, the reason I feel so 
passionately about this is, I've seen, over and over again, 
people who didn't have hope, who were told--who literally 
couldn't walk across the street without getting severe chest 
pain, and, within weeks, most of those people become pain free, 
as you have seen. It transforms their lives. And that's why 
people are able to make and maintain these changes.
    So I remain deeply grateful to you and Senator Specter and 
Ms. Taylor and others for making it possible for us to get to 
this point. And I think our work can really be a model for 
showing people that if you can reverse disease, clearly you can 
help prevent it.
    Senator Harkin. But, Dean, we've got to start with kids 
early on.
    Dr. Ornish. Couldn't agree with you more.
    Senator Harkin. The junk food they're eating--look what 
they're eating in schools, look at the--and not only just what 
they're eating, how much people are eating now.
    Dr. Ornish. Yes.
    Senator Harkin. I mean, the portions of food are getting 
immense. It's just staggering how much they put on a plate now 
for you to eat, as if that's desirable.
    Dr. Ornish. Well, I've been consulting also with some of 
the major food companies--with PepsiCo, with ConAgra, with 
McDonald's--to say, you know, there is an opportunity here for 
you to do well and do good by changing what you make. They're 
in the behavioral-modification business, too. And if they can 
use all those advertising and celebrities and resources to make 
it convenient and fun and hip and interesting and sexy to eat 
healthfully and exercise, to develop programs with kids, then I 
think we might be able to make a difference there, as well.
    Senator Harkin. Thank you.
    Ms. Silberman, exercise again. We talk about nutrition and 
diet, but exercise--80 percent of elementary-school kids today 
get less than an hour of P.E. a week. I was just in Iowa last 
weekend, Sioux City, elementary-school kids receive two 25-
minute periods a week. That's it. Elementary schools are being 
built without a playground, without any exercise areas, around 
the country today.
    When I was a kid--probably Jack, too, in Waterloo; maybe 
many of us, at least our age--we had recess in the morning, 
recess in the afternoon, and a half-hour after lunch. And it 
had to be 40 below zero before we could stay indoors.
    You had to get out and exercise--run around, do things. And 
kids today aren't--there are problems like the PEP Program in 
schools. And I think, with all due respect to my friend, Mr. 
Rule, who was a star athlete in high school, and beyond, we 
focus too much on sports. I mean, I visited schools where they 
have exercise programs for every child, even kids with 
disabilities, every day of the week. They track them, they map 
their body mass index, their cholesterol; they give them 
charts, and they show them how to progress--every child getting 
physical activity every day during the week. Now, somehow we've 
got to incentivize that, too.
    I leave you with this. When I was a kid in grade school in 
rural Iowa, we got our report cards for all the courses and 
stuff, but we also had another section of the report card that 
things on it like deportment--which I never did well in, but I 
won't get to that--but it also had health, it had to do with 
what you did in health. You know, if it's important for kids to 
graduate from school today with good grades and to exercise 
their brains, it's also, I think, important for kids to 
graduate from school today with good health. Why is that not a 
part of our report-card system? Why is that not part of the 
incentive system? As you go through school, you are graded on 
how well you eat, what nutritious foods you take in, how much 
you exercise, what your health condition is as you progress 
through school. Why isn't that part of our whole school system 
in America?
    Ms. Silberman. I think that we need to have a cultural 
shift. I mean, I think you're absolutely right, we've got to 
get kids more active regularly, we have to have them learn 
early the love of movement and fitness and being active, so 
that it's part of their everyday life as they become adults. 
And I think you're right, the school is the perfect delivery 
system for that, and we're doing children a disservice by 
pushing P.E. off, and recess off, of the daily activities that 
should be included.
    Senator Harkin. In Sioux City--last weekend I was there--
they've laid off five P.E. teachers because of cut on school 
funding. And they're the first to go, P.E. teachers. They get 
rid of them. And what a terrible signal to send to kids.
    So I encourage you, through your organization, to do what 
you can on--and we don't control local schools. That's local. 
But we've got to somehow provide the leadership and the bully 
pulpit and the incentives--whatever we can provide, incentive-
wise, to local school districts--to provide that kind of 
physical activity for kids.
    Ms. Silberman. I agree.
    Senator Specter. Thank you very----
    Senator Harkin. So we need your help.
    Thank you, Mr. Chairman.
    Senator Specter. Thank you very much, Senator Harkin.
    Thank you, Ms. Silberman, Dr. Ornish, and Mr. Rule. I want 
to compliment the YMCA on what they're undertaking to do here. 
I very much regret I will not be able to join you at the press 
conference, but I think it's a great, great program, and I'm 
delighted to see Pittsburgh is 1 of the 14 cities.

                    ADDITIONAL SUBMITTED STATEMENTS

    We have received the prepared statements of Senator Thad 
Cochran and Cheryl G. Healton, president and CEO, American 
Legacy Foundation that will be placed in the record.
    [The statements follow:]

               Prepared Statement of Senator Thad Cochran

    Mr. Secretary, we appreciate your exemplary service as Secretary of 
Health and Human Services and your good efforts to prevent disease by 
encouraging Americans to adopt healthy lifestyles and practice good 
health habits. We have heard you say on several occasions that ``we 
need to stop making healthy living a fad in America, and start making 
it a way of life.''
    Prevention strategies, as well as lifestyle and dietary changes, 
are the best tools to combat diabetes, heart diseases, and many other 
chronic conditions that afflict our population. The economics of 
prevention strategies are dramatic and data show that preventing 
instead of treating disease is very cost effective. For every $1 spent 
on diabetes education, $3 are saved on hospitalization costs, and 
estimates are that if 10 percent of adults began a regular walking 
program, $5.6 billion in heart disease costs could be saved. Because of 
this tremendous return on investment, such strategies present the 
greatest hope for areas of our country that suffer disproportionately 
from disease.
    One of the agencies with primary responsibility for preventing 
disease is the Centers for Disease Control and Prevention--we often 
forget to mention the prevention component of the CDC's mission. It is 
my hope that we can continue to increase funding for the public health 
research being conducted by the CDC. This research will help us to 
better understand which interventions and programs are the most 
effective at changing lifestyles, improving exercise and dietary 
habits, and affecting behavioral decision making. I hope we can 
continue to focus resources on this important area.
    I believe Secretary Thompson and federal agencies such as the CDC 
recognize the value in health promotion. I also believe prevention and 
healthy lifestyle changes hold the greatest promise for overcoming the 
tremendous health challenges facing my state of Mississippi and our 
nation. It is my hope that the Congress will encourage and strengthen 
these efforts.
                                 ______
                                 
 Prepared Statement of Cheryl G. Healton, Dr. P.H., President and CEO, 
                       American Legacy Foundation

    I would like to take this opportunity to commend Senator Arlen 
Specter and Senator Tom Harkin for holding this hearing to examine the 
important issues of healthy lifestyle and disease prevention and to 
thank them for allowing me to submit this testimony for the record on 
behalf of the American Legacy Foundation. Although we may not lobby or 
take positions on specific legislation, we invite you to look to us as 
a substantive resource on questions regarding tobacco related health 
issues.
    Tobacco-related disease continues to be leading cause of 
preventable cause of death in the United States. Since 1964, more than 
12 million people in the U.S. have died from smoking. While trends show 
a decline in cigarette use, we must remain vigilant to ensure that all 
of the gains made in the battle against tobacco related disease are not 
lost.
    Tobacco kills 440,000 Americans each year and afflicts thousands 
more with heart disease, cancer, emphysema, stroke and other tobacco-
related diseases. It is responsible for more deaths than alcohol, AIDS, 
car accidents, illegal drugs, murder and suicides combined and tobacco-
related illness costs our society billions of dollars in public and 
private health care costs and in lost productivity.
    My esteemed colleagues addressed many of the issues linking healthy 
lifestyle and disease prevention and brought to light a number of 
promising initiatives that will serve as models for a healthier 
America. I would like to bring one of the American Legacy Foundation's 
most successful programs to your attention as well: the truth 
campaign.
    80 percent of adult smokers begin their deadly habit before turning 
18. The best way to reduce adult smoking is to prevent smoking 
initiation during youth. Every day in the United States, more than 
4,000 young people between the ages of 12 and 17 try a cigarette for 
the first time, and about 2,000 will become daily smokers. About 23 
percent of U.S. high school students and 10 percent of U.S. middle 
school students smoke cigarettes. Of youth who are smokers, about one-
third will eventually die from a tobacco-related disease. These figures 
are frightening. Knowing what we know today, this and future 
generations of young people need to be spared a lifetime of addiction, 
illness and death.
    The American Legacy Foundation has been exploring the tobacco 
habits of teens for more than five years and recently released the 
First Look Report 13 in order to disseminate the findings of the 2002 
National Youth Tobacco Survey. This report presents very positive 
trends in the reduction of youth smoking, but it also brings to light 
areas that still require our attention. The good news is that current 
smoking has declined among high school students from 28 percent in 2000 
to 23 percent in 2002, but the rate of 10 percent of middle school 
students who smoke regularly remains almost unchanged.
    With its blunt messaging and frank approach, the award winning 
truth campaign is routinely cited as one of the reasons behind record 
declines in youth smoking rates. The data supporting the effectiveness 
of the truth campaign serves as a powerful reminder to policy makers 
that tobacco awareness campaigns produce positive results.
    Unfortunately, truth is at risk. This year the American Legacy 
Foundation received its last payment from the Master Settlement 
Agreement (MSA). This is because the MSA included a sunset provision 
which only guaranteed funding for the first five years and then only in 
subsequent years if 99.05 percent of the tobacco market-share was held 
by participating companies, including all of the major U.S. tobacco 
companies as well as many smaller companies. That market-share is no 
longer being met and thus, tobacco companies are no longer required 
under the MSA to continue making payments to support public education 
programs at the American Legacy Foundation.
    The sunset in funding for the American Legacy Foundation's truth 
campaign comes at a time when tobacco companies continue to spend 
billions each year to advertise their deadly products. In 2001 alone, 
the tobacco industry spent a record $11.2 billion marketing their 
products--up by $5 billion since the MSA was signed. Although the 
American Legacy Foundation is aggressive in our counter-marketing 
efforts, the industry routinely outspends us by 200 to 1. Without 
continued funding, the truth campaign could be effectively silenced by 
2008, if not sooner. Without truth, a new generation will be 
vulnerable to the advertising messages of the tobacco companies. As it 
stands, the American Legacy Foundation finds itself in the position 
where it is the last national safety net for youth tobacco prevention 
programs. States are using tobacco education funds provided through the 
MSA to make up for fiscal deficits. Other major foundations have been 
forced to reassess their priorities. And, despite substantial national 
focus on FDA regulation of tobacco products and other important tobacco 
related policy issues, there has been virtually no discussion of the 
importance of youth tobacco counter marketing campaigns. Even the White 
House Office of National Drug Control Policy has steadfastly refused to 
include youth tobacco control messages in its National Youth Anti-Drug 
Media Campaign--despite that fact that such inclusion would be within 
its mandate and despite the fact that it appropriately decided this 
year to include youth alcohol use.
    The link between underage tobacco use and other illicit drugs can 
no longer be overlooked. According to a study conducted jointly by the 
American Legacy Foundation and the National Center on Addiction and 
Substance Abuse (CASA), 60 percent of repeat marijuana users smoked 
cigarettes first, and teens who smoke cigarettes are 14 times likelier 
than their non-smoking counterparts to try marijuana, six times 
likelier to buy marijuana in an hour or less, and 18 times likelier to 
say most of their friends smoke marijuana. Marijuana is widely regarded 
as the ``gateway'' drug, opening the door for young people to try 
illegal drugs like cocaine, heroine, and ecstasy. I believe that this 
report supports the view that cigarettes can also be a ``gateway'' 
drug.
    The findings of the study are staggering given the large number of 
teens who try smoking or regularly smoke. Smoking cigarettes introduces 
teens to the sensation of inhaling a drug and desensitizes them to the 
feeling of smoke entering their lungs. Even among their peers, 77 
percent of teens say cigarette smokers are more likely to smoke 
marijuana and teens who are current cigarette smokers are more likely 
to be repeat marijuana users than one-time marijuana users. This 
destructive behavior can permeate groups of friends making the peer 
pressure to smoke cigarettes, drink alcohol and smoke marijuana 
extremely high.
    The study also revealed that 55 percent of teens who are current 
cigarette smokers report that more than half of their friends use 
marijuana, compared with only three percent of those who have never 
smoked cigarettes. This underscores for parents, teachers, policymakers 
and anyone else concerned with the welfare of American children, the 
importance of intervening to end tobacco use and prevent other drug 
abuse.
    If we truly seek a healthy America, we must reinforce and renew our 
commitment as a nation to youth tobacco prevention. The truth campaign 
is a proven, life-saving tool in this effort. I would like to thank the 
committee members, particularly Senators Specter and Harkin, for the 
opportunity to present the views of the American Legacy Foundation on 
this important issue. Thank you.

                         CONCLUSION OF HEARING

    Senator Specter. Thank you all very much for being here. 
That concludes our hearing.
    [Whereupon, at 11:15 a.m., Thursday, July 15, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


</pre></body></html>
